<html>
<title> - EXPLORING THE NATURE OF UIGHUR NATIONALISM: FREEDOM FIGHTERS OR TERRORISTS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     EXPLORING THE NATURE OF UIGHUR
              NATIONALISM: FREEDOM FIGHTERS OR TERRORISTS?

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

                           Serial No. 111-30

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-504                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Randall G. Schriver, Partner, Armitage International (former 
  Deputy Assistant Secretary for East Asian and Pacific Affairs, 
  U.S. Department of State)......................................     9
Sean R. Roberts, Ph.D., Director and Associate Professor, 
  International Development Studies Program, Elliott School of 
  International Affairs, The George Washington University........    17
Dru C. Gladney, Ph.D., President, Pacific Basin Institute, Pomona 
  College........................................................    24
Ms. Shirley Kan, Foreign Affairs, Defense, and Trade Division, 
  Congressional Research Service.................................    58
Ms. Susan Baker Manning, Partner, Bingham McCutchen..............    64
Bruce Fein, Esq., Principal, The Litchfield Group................    75

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Randall G. Schriver: Prepared statement......................    14
Sean R. Roberts, Ph.D.: Prepared statement.......................    20
Dru C. Gladney, Ph.D.: Prepared statement........................    27
Ms. Shirley Kan: Prepared statement..............................    61
Ms. Susan Baker Manning: Prepared statement......................    67
Bruce Fein, Esq.: Prepared statement.............................    77

                                APPENDIX

Hearing notice...................................................   124
Hearing minutes..................................................   126
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Material submitted for the record.....   127


    EXPLORING THE NATURE OF UIGHUR NATIONALISM: FREEDOM FIGHTERS OR 
                              TERRORISTS?

                              ----------                              


                         TUESDAY, JUNE 16, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:17 a.m., in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. This hearing will come to order. I want to 
welcome a very distinguished group of witnesses whom I will 
shortly introduce; and we will be joined by another witness, I 
understand, via video link from Kosovo.
    This is the second in a series of hearings we plan to hold 
which will explore the circumstances surrounding the detention 
of 22 Uighurs, which is a Turkic Muslim minority from Northwest 
China, who were incarcerated at Guantanamo Bay.
    In our first hearing, our panel was again composed of 
distinguished experts on Uighur history. It included the three-
time Nobel Prize nominee and leader of the Uighur community 
worldwide, Mrs. Kadeer, who, along with the rest the panel, was 
unanimous in stating that Uighurs were and are an oppressed 
minority in China. Furthermore, all agreed that the Communist 
Chinese Government has used the war on terror as a means to 
avoid criticism as they brutally persecuted and oppressed the 
Uighur minority.
    In fact, the House of Representatives, in a resolution 
numbered 497, stated that the Chinese Communists had--and this 
is the language of that resolution; and both myself and the 
ranking member, Mr. Rohrabacher, were sponsors; again, I am 
quoting from the language of the resolution itself--
``manipulated the strategic objectives of the international war 
on terror to increase their cultural and religious oppression 
of the Muslim population residing in the Uighur autonomous 
region.''
    The regime in Beijing conflates peaceful civil disobedience 
and dissent with violent terrorist activity. In fact, when I 
asked our witnesses, that previous panel--and again, I am 
quoting from the transcript--if Speaker Gingrich--I was 
referring to Mr. Gingrich to suggest that they be returned to 
China--``Well, if Speaker Gingrich had his way and the 17 
Uighurs were to be returned to China, what would their fate 
have been?''
    Well, one witness, Mr. Nury Turkel, a Uighur lawyer and 
activist, said unequivocally that would be equal to a one-way 
ticket to the death chamber; and the rest of the panel agreed a 
return to China would be certain torture and very well may lead 
to a summary execution.
    Well, today, we turn our attention to the East Turkistan 
Islamic Movement or, as it is known by its acronym, ETIM. The 
charge that the Uighurs at Guantanamo were terrorists was 
predicated on an unsubstantiated claim that they were somehow 
affiliated with this group. Over time, the Uighurs have been 
cleared by both the Bush administration and our Federal courts. 
And, as we all know, the Obama administration has been making 
every effort to resettle these men in suitable countries.
    Four Uighurs have been currently resettled in Bermuda. I 
wish to publicly thank, and I am confident that my friend and 
colleague from California, Mr. Rohrabacher, joins in this, to 
thank the Bermuda Government, Premier Brown, who displayed 
great courage and decency when giving these Uighurs a new home. 
The Premier will shortly be receiving a letter from myself and 
Mr. Rohrabacher to that effect.
    However, my question is: How did this accusation develop 
against 22 men when even the very existence of ETIM is subject 
to some debate, particularly in light of the fact that these 
men were not apprehended on the battlefield, either by Northern 
Alliance soldiers or by American military but, in my opinion, 
were the victims of a bounty system. As we have come to learn, 
the Uighurs were sold to American forces by unknown Afghani and 
Pakistani individuals for the sum of $5,000 each.
    During the Bush administration, ETIM was classified as a 
terrorist organization under an Executive Order numbered 13224. 
It is important to note that under this Executive Order it 
defines terrorism as actions that do not necessarily threaten 
the United States and its citizens. By contrast, a designation 
as a foreign terrorist organization--again, an acronym, an 
FTO--it is required that a group engage in terrorist activity 
and that this terrorist activity must threaten the security of 
the United States or its nationals.
    I am unable to find, nor does any research appear, that at 
any time was ETIM considered for listing as an FTO.
    Now, although this may be a subtle bureaucratic 
distinction, it is an important fact. Why, if ETIM was a threat 
to our national security, was it not classified as an FTO like 
organizations such as Hamas, Hezbollah, and al-Qaeda? These 
groups, properly labeled FTOs, are considered a direct and 
dangerous threat to the United States' national security.
    In any event, my primary concern is that, in making our own 
assessment as to the nature of this shadowy group, the ETIM, 
did we place or did we unduly rely on Chinese Communist 
intelligence, some may even call it propaganda, Chinese 
propaganda to suit their own strategic objectives or tactical 
objectives concerning the Uighur minority?
    It appears to me that we took substantial intelligence 
information from the Chinese Communist regime and then used 
that questionable evidence as our own as a significant factor 
in the determination that ETIM was a terrorist organization.
    I am going to ask staff to hold up two poster boards, one 
at a time. One includes a statement taken from a Chinese 
document entitled: East Turkistan terrorist forces cannot get 
away with impunity. This is published by the Chinese Communist 
Information Office in January 2002. In that document, the 
Chinese attribute over 200 terrorist incidents resulting in 162 
deaths and 400 injuries to undefined parties, simply labeled by 
the Chinese as East Turkistan terrorist forces.
    Now, examine the second poster; and this is a statement 
released from our Department of Treasury published in September 
2002 in response to listing ETIM as a terrorist organization. 
In this statement, our Government takes the Chinese statistics 
of 200 terrorist incidents, 162 deaths, and 400 injuries, and 
now attributes them to a single group, the ETIM.
    Now, let me pose a rhetorical question. Why has the 
perpetrator of these acts suddenly changed from undefined 
groups to the ETIM? And why did our Government take the 
statistics of the Communist Chinese Government and utilize it 
in the classification of ETIM as a terrorist organization? That 
causes me profound concern.
    Now, regardless of where the 13 Uighurs currently detained 
in Guantanamo are resettled, whether it be in Bermuda, Palau--I 
understand today that the prime minister of Italy, Berlusconi, 
has indicated that Italy will accept three of the Uighurs. 
Again, if that is accurate, let me say thank you to the 
Government of Italy.
    This question about reliance, and particularly in the case 
of the specific case of ETIM, must be answered, because it 
raises serious concerns as to whether American foreign policy 
can be manipulated by the Communist Chinese Government or, for 
that matter, anyone else.
    Professor Millward, who is a well-known scholar in this 
area, echoes my concern in an article--or maybe I am echoing 
his concern--in an article he wrote entitled, ``Violent 
Separatism in the Uighur Autonomous Region: A Critical 
Assessment.''
    On September 2, 2001, the Communist Party Secretary of that 
region said that the situation there was better than ever in 
history. That is September 2, 2001. While mentioning 
separatism, the party secretary for the region stressed that 
society is stable and people are living and working in peace 
and contentment. The Communists even went on to say that the 
nightlife is terrific. It goes on to two or three in the 
morning.
    Two weeks later, not surprisingly, the official Chinese 
Communist line changed following the September 11 attacks on 
the United States. Official Chinese Communist pronouncements 
began to stress that the threat of terrorism in that region was 
significant.
    As China's leadership maneuvered itself side by side--and, 
again, these are the words of Professor Millward--with the 
United States on the war on terror, according to him, this 
required a revision of the official description of separatists 
in the region and what had generally been described as a 
handful of separatists was now a full-blown terrorist 
organization. Professor Millward hypothesizes that this helped 
Beijing warm its somewhat at the time chilly relationship with 
Washington.
    Well, hopefully, today this panel will cast some light on 
this issue. Because I believe that the case of the Uighurs is 
not simply about these 22 men from northwestern China. It is 
much more. It is about the very process we utilize in making 
far-reaching decisions about critical foreign policy issues and 
national security concerns.
    When we designate a group as a terrorist organization, are 
we relying on foreign intelligence, whether it be Chinese 
Communist intelligence, in such a way that the results are 
seriously flawed so that the consequences harm our national 
security interests? Let's not forget that flawed intelligence 
played a key role in the decision to invade Iraq, and we 
learned subsequently that Saddam Hussein neither had links to 
al-Qaeda, nor had weapons of mass destruction.
    So what I hope is that we can utilize the Uighurs, if you 
will, as a case study to examine the process so that we may 
mitigate its deficiency and help our Nation reach better 
decisions, acknowledge our mistakes, and, most importantly, do 
justice to the innocent.
    Now, let me turn to my friend and colleague, the ranking 
member, Mr. Rohrabacher, for his opening statement; and let me 
indicate, too, that I know he has other commitments today, and 
it is my intention to let him, after we introduce the 
witnesses, proceed with his questioning before I do.
    Dana.
    Mr. Rohrabacher. Thank you very much.
    I do want to thank my good friend and chairman for not only 
holding this hearing but deciding that we should focus on this 
issue so the American people will understand the facts behind 
it and the relevance of this issue.
    I would also right off the bat like to express my deep 
appreciation to the leader in Bermuda, Premier Brown, for his 
courage to do what is morally right in this situation. He has 
demonstrated, I think, the best of democracy. That is what 
leadership is all about, is being willing to take such tough 
stands. I am sorry that our own leadership here at home and 
even in my own party seems lacking at this moment.
    I will be equally grateful to the leadership in Palau if 
that island nation gives refuge to these falsely accused 
Uighurs. The people of Palau should stand behind their leaders 
and show that they, too, are a morally superior group of 
people. And this is one way that they will certainly be 
acknowledged for that by those of us who perhaps don't know 
them now but will get to know them if they back up their 
leadership in this courageous decision.
    Chairman Delahunt is doing a great service to our country 
by educating the Congress about the plight of the Uighurs and 
educating, hopefully, through the Congress and through these 
hearings, to the people of the United States, who need to 
understand what the occupation of East Turkistan is all about. 
I hope that this series of hearings helps clarify how the 
Uighurs who were sent to Guantanamo Bay prison, how and why 
that happened and how the Communist Chinese Government gained 
access to them while they were there and what the Chinese 
officials did to them while they were there, and then also what 
the Chinese Government is doing to the people of East Turkistan 
and how that there can be perhaps some lessons learned.
    A Defense Intelligence Agency expert on Chinese 
counterintelligence operations once said that it is the 
mother's milk of counterintelligence to create phony political 
organizations. He stated that the Chinese are especially good 
at it and utilize this method in order to know who to watch and 
who eventually to eliminate. Phony or front organizations can 
be used to tarnish a good cause by blaming it for violence 
against innocent people when in fact government agencies are 
often committing that very violence.
    We have good reason to believe this may be the case for 
some of the so-called Uighur organizations. Much to my dismay, 
some pundits in the Republican Party have fallen for this bait 
and are lumping the Uighurs in with Islamic extremists.
    The Bush administration did not help matters. It held 
Uighurs in Guantanamo as terrorists; and they did this, I 
believe, to appease the Chinese Government in a pathetic 
attempt to gain its support at the beginning of the war against 
Iraq and also to assure China's continued purchase of U.S. 
Treasuries.
    Many, if not all, of the negative allegations against the 
Uighurs can be traced back to Communist Chinese intelligence, 
whose purpose is to snuff out a legitimate independence 
movement that challenges the Communist Party bosses in Beijing.
    No patriot, especially no Republican who considers himself 
a Reagan Republican, should fall for this manipulation, which 
has us do the bidding of a dictatorship in Beijing.
    In the Hall of Shame, of course, is our former Speaker, 
Newt Gingrich. His positioning on this should be of no surprise 
and is of no surprise to those of us who, during Newt's 
leadership, were dismayed by his active support for Clinton-era 
trade policies with Communist China, policies that have now had 
a disastrous impact on our economy, while bolstering China's 
economic and military powers. Most favored nation status, 
trading status, should never have been granted to such a 
vicious dictatorship.
    Newt and his big corporations as well as those leaders in 
the Clinton administration persuaded Members of Congress in the 
1980s and again in the '90s to go along with an embracing of 
Communist China; and, as such, those people, whether they are 
Republicans like Newt or whether they are those people in the 
Clinton administration who were advocating this, did no favor 
to the people of the United States.
    Our current economic vulnerability to a dictatorship, to 
the world's--actually, the world's worst human rights abuser 
can be traced back to that morally flawed policy in the 1990s.
    Within the span of 20 years, we have gone from having a 
trade deficit with Communist China of $1.7 billion, to over 
$300 billion a year today. We are losing 650,000 jobs a month, 
and it is obvious or should be obvious to anyone who bothers to 
read the labels that just about every one of these jobs that we 
are losing are going to Communist China.
    The Chinese Communist Party has accumulated $2 trillion of 
sovereign wealth funds by producing and selling American brand 
products to Americans. Of course, it was the Americans who once 
produced these very same products here on American soil. Moving 
derivatives, stocks, and bonds on paper from one side of a 
table to the other does not create wealth. Manufacturing jobs 
create wealth. And this basic fact has not been lost on 
Communist Party bosses in Beijing. Now our leaders have to beg 
the Chinese to buy our Treasuries.
    Well, thanks to the so-called leaders of the Republican and 
Democratic Party in the 1990s who set us up on this path to 
oblivion, we now are vulnerable to this Communist Chinese 
dictatorship; and it is extending its power throughout the 
world based on the economic relationship that it established 
with us back in the '90s.
    Have we drifted so far away from our principles that we 
willingly accept leaders--and I say this was leadership in the 
Democratic Party during the Clinton years, and now we see a 
leader from that era in the Republican Party--doing the bidding 
of the Communist Chinese Party by attacking and, in this case, 
attacking people who are protesting Beijing's repressive rule? 
And that is what the Uighurs are guilty of. They are protesting 
and opposing a repressive rule by the Communist Party regime in 
Beijing.
    Newt should come right now before this committee and 
explain to us how occupied East Turkistan is any different from 
the present-day occupied Tibet or of Latvia, Lithuania, and 
Estonia during the Cold war. He should explain why he has been 
doing the bidding of Beijing and doing so at the expense of 
people who are seeking freedom and democracy for their own 
people.
    Many conservatives who are knowledgeable about these facts 
actually have joined with us a long time ago, Mr. Chairman, and 
all along have been on the side of the Uighurs and tried to 
spread the word, the truth about this situation; and I will 
include for the record now a list of about 20 of them. Rather 
than read them all, let me just note there are many prominent 
Republican leaders who are opposed to these statements that are 
being made by former Speaker Gingrich.
    Mr. Delahunt. Without objection, the list will be submitted 
into the records of the committee.
    Mr. Rohrabacher. Thank you very much.
    An ongoing attempt to appease Communist China has been 
behind the detention of the 17 Uighurs currently held in 
Guantanamo. By detaining the Uighurs, the United States was and 
still is an accomplice to Chinese brutal occupation of East 
Turkistan and the discrimination against the Uighur people that 
they suffer that we heard so much about during the first 
hearing. Both Republican and Democratic Parties need to 
recognize this and not cower before Beijing's now powerful 
economic capabilities.
    It is my hope that this hearing will help dispel some of 
the serious confusion and propaganda about the Uighurs, both 
the Uighurs who are at home who are struggling for their 
freedom and to live in a Democratic society and these 17 
Uighurs who are courageous enough to try to learn the skills 
that would enable them to resist the dictatorship in Beijing.
    I am very proud to join my chairman, my good friend, 
Chairman Delahunt, in this effort. Now I am looking forward to 
hearing the testimony.
    Mr. Delahunt. Thank you, Congressman Rohrabacher.
    I want to acknowledge the presence of Eni Faleomavaega, my 
good friend who chairs the Subcommittee on Asia and the South 
Pacific, and invite him to make any statement he may wish.
    Mr. Faleomavaega. Mr. Chairman, I don't have an opening 
statement, but, again, I want to commend you and Ranking Member 
Mr. Rohrabacher for your initiative and leadership in calling 
this hearing and bringing to bear a better understanding of the 
Uighur people and exactly the issue that you are seeking here 
for the kind of policies that we have enunciated since the 
1990s right up to this time.
    I do thank the gentleman from California for calling a 
spade a spade and for his very provocative thoughts. This is 
not a Democratic or a Republican issue, partisan in any way, 
but to find out exactly what the truth is.
    I do want to commend our members of the panel for their 
appearance this morning and look forward to hearing their 
testimony.
    Mr. Delahunt. And I thank the gentleman.
    I wanted to note that I have alluded to the fact that this 
is a series of hearings. I anticipate we will have seven or 
eight. I intend to deploy our great staff to conduct 
interviews. I think it is time that the American people hear 
from those that have been detained.
    I am sure that many, at least on this panel, are aware, as 
Congressman Rohrabacher indicated, that Communist Chinese 
intelligence agents were provided access to the inmates--the 
Uighur inmates in Guantanamo. That I find profoundly 
disturbing. Yet, at the same time, our request, myself and that 
of Mr. Rohrabacher, with the approval of counsel for those who 
were detained, to have access to hear them, to interview them, 
to discern as best we can the truth, because this is a search 
for the truth, we were denied access.
    However, I had a conversation last evening with Premier 
Brown of Bermuda and indicated to him that myself and Mr. 
Rohrabacher were interested in going to Bermuda and having a 
briefing, a hearing, whatever the appropriate term is, and 
invite these now-freed Uighurs to come before this subcommittee 
and maybe in conjunction with other subcommittees of the 
Foreign Affairs Committee to listen to what they have to say. I 
think that is an important step. Whatever the results are, 
whatever the facts are, let's put them out on the table.
    There seems to be a proclivity on the part of the 
Executive--and, again, I am not just referring to the Bush 
administration but as well the Obama administration--to 
classify, in my opinion, far too much information. This will 
provide us an opportunity for every single American citizen, 
and particularly those who are very much involved in 
scholarship and as students of the Uighurs, to hear from them 
firsthand, unfiltered, without pundits interpreting for members 
of the committee and for the American public as to what their 
experience was.
    With the approval of the ranking member, it is my intention 
in the very near future to go to Bermuda to determine the 
feasibility of actually doing that and then coming back and 
reporting to the committee and consulting with Mr. Rohrabacher 
about having that kind of an exercise in Bermuda, which 
hopefully would educate members of the committee, the academic 
community, and all of us as to their reality in terms of how 
they saw it and welcome anyone who has any disagreement with 
their view to come before this committee and testify.
    I would think it would be refreshing to have people like 
myself and Mr. Rohrabacher and Newt Gingrich and all those 
others who opined to maybe listen--what a refreshing change 
that would be--and ask relevant questions so that as we proceed 
forward we don't make the mistakes that we have made in the 
past.
    Again, I say that not as a ``large D'' Democrat but as a 
``small d'' democrat and as someone who is very concerned about 
American foreign policy being manipulated or influenced in a 
way that is against our interests and against the better 
instincts and the values of the American people that we talk 
about.
    So, Dana, I will report back to you. And hopefully we will 
be making a trip to Bermuda; and you are welcome, too, Eni.
    Now let me introduce this panel.
    Our first witness, Randy Schriver. Randy is one of the five 
founding partners of Armitage International LLC, a consulting 
firm that specializes in international business development and 
strategies. Prior to his return to the private sector, he 
served as Deputy Assistant Secretary of State for East Asia and 
Pacific Affairs. Before joining the Asia Bureau, he served for 
2 years as Chief of Staff and Senior Policy Advisor to Deputy 
Secretary of State Richard Armitage whom, by the way, I always 
found to be refreshingly candid, a straight shooter.
    Mr. Schriver holds a bachelor's degree in history from 
Williams College--not a bad school, not quite Middlebury, but 
not a bad school--and a master's degree in public policy from 
Harvard University.
    Our next witness--and I am sure he is listening--will be 
joining us via video hookup from Kosovo. That is Professor Sean 
Roberts. Professor Roberts is the Director of the International 
Development Studies Program and an Associate Professor in the 
practice of international affairs at George Washington 
University's Elliot School for International Affairs. He is a 
legitimate expert on the region of Central Asia, with a 
particular focus on the Uighur people. He has spent several 
years conducting research in Uighur communities in both Central 
Asia and China and is the author of numerous articles and a 
documentary film on the Uighurs of the Kazikstan-China 
borderland.
    Professor Roberts earned his master's degree in visual 
anthropology and his doctorate in social anthropology at USC.
    Professor, thank you for joining us from such a far 
distance. I hope you can hear that welcome.
    Next, let me welcome Professor Dru Gladney. He, too, is a 
legitimate, authentic expert in this area. He is a professor of 
anthropology at Ponoma College and currently serves as 
president of the Pacific Basin Institute in Claremont, 
California. He has published over 100 academic articles and 
numerous books. He has held faculty positions and postdoctoral 
fellowships at Harvard, the University of Southern California, 
King's College at Cambridge, and the Institute for Advanced 
Study at Princeton. Professor Gladney received his Ph.D. from 
the University of Washington in Seattle.
    Following Professor Gladney will be Shirley Kan. Ms. Kan 
has worked at the Congressional Research Service since 1990 and 
writes policy analysis and provides other nonpartisan 
legislative support to Congress as a specialist in Asian 
Security Affairs. During the Taiwan Straits crisis of 1995, 
1996 she directly supported the defense attache at the Embassy 
in Beijing, for which she received a Defense Department Special 
Achievement Award.
    She graduated cum laude from the School of Foreign Service 
at Georgetown and from the University of Michigan in an Ann 
Arbor, where she received a master's degree.
    Next joining us will be Susan Baker Manning. She is a 
partner at Bingham McCutchen, which is in Boston, or 
headquartered in Boston, where she focuses her practice on 
intellectual property matters, including patent, trademark, and 
copyright cases. This is quite a diversion, Susan. She also 
maintains a thriving pro bono practice, including the 
representation of numerous Uighur detainees at Guantanamo, 
including the four who recently resettled in Bermuda.
    She received her bachelor's degree from Mount Holyoke and 
law degree from the University of Virginia.
    Ms. Manning, welcome back. We look forward to hearing from 
you. We will be seeking your assistance in terms of 
interviewing your clients and we would hope and welcome their 
written waiver and a consent for us to interview them.
    Finally, we will hear from my good friend Bruce Fein, a 
nationally and internationally renowned constitutional lawyer, 
scholar, and writer. He served as both Associate Deputy 
Attorney General for the Justice Department and General Counsel 
for the Federal Communications Commission under President 
Reagan. He later served as legal advisor to then Congressman 
Dick Cheney on the Joint Committee on Covert Arm Sales to Iran.
    I never knew that about you, Bruce.
    Mr. Fein is the founding partner of Bruce Fein and 
Associates and is currently writing a sequel to his recent book 
Constitutional Peril.
    So it is an honor to welcome the witnesses here. We all 
look forward to your testimony.
    Why don't we begin as I introduced you, and we will begin 
with Secretary Schriver.

    STATEMENT OF MR. RANDALL G. SCHRIVER, PARTNER, ARMITAGE 
INTERNATIONAL (FORMER DEPUTY ASSISTANT SECRETARY FOR EAST ASIAN 
         AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE)

    Mr. Schriver. Good morning, Mr. Chairman. I would gladly 
add that is former secretary. I am very happy in the private 
sector in my new life enjoying time with my family.
    Mr. Chairman, thank you very much for inviting me and for 
holding this important hearing. Congressman Rohrabacher, 
Congressman Faleomavaega, thank you also for your attendance 
and interest in this issue.
    Sadly, not enough Americans are aware of the plight of the 
Uighur community. This kind of hearing and the subsequent 
hearings you plan to hold are very valuable and very necessary, 
so I commend you for this; and I commend your staff as well. It 
has been a pleasure to work with them in the preparations for 
this hearing. I look forward to working with them in the future 
as this process continues.
    We are all here to speak about the tragic circumstances 
that the Uighurs find themselves in in Xinjiang and elsewhere. 
I have been aware of this community and their plight for quite 
some time, but I became much more involved and interested 
during my tenure as Deputy Assistant Secretary of State for 
East Asia. Through that experience, I did grow to have a deep 
appreciation for the people, for the culture, for the history, 
and also, of course, developed deep concern for their tragic 
circumstances and the position they find themselves in in 
Xinjiang.
    As Deputy Assistant Secretary, I did have the great fortune 
to work with members of the Uighur Diaspora. I consider them 
friends and, in many cases, personal heroes of mine. I worked 
with the Uighur American Association.
    And I saw Mury Turkel here earlier today. He was a great 
colleague out of government as we worked side by side on 
important issues, including trying to secure the release of 
Rebiya Kadeer. And even though we were told many times by the 
Chinese----
    Mr. Delahunt. Mr. Secretary, let me interrupt you, with due 
respect, but I also want to acknowledge the presence here of 
Mrs. Kadeer, who I described earlier as a Nobel Peace Prize 
nominee and as really the acknowledged leader of the Uighur 
community worldwide.
    Mr. Schriver. Thank you, Mr. Chairman. I hope someday that 
is not just Nobel nominee; I hope that is Nobel Prize winner 
and laureate someday.
    Again, she is a personal hero of mine and deeply impacted 
my views about the situation in Xinjiang. She is a living 
example to me of why the Chinese policies in Xinjiang are so 
misguided. She is somebody of passion, or energy, of intellect, 
and capability. She is precisely the kind of person that could 
enrich Xinjiang and, laterally speaking, China. Instead, she is 
viewed as a threat to the central leadership. This is terribly 
misguided, in my view.
    Mr. Chairman, you and your staff asked me to talk about the 
issue of nationalism among the Uighur population. I think this 
is somewhat difficult when you talk about any community, 
because nationalism, of course, can manifest into quite 
admirable types of activities--pride in country, advocacy for 
one's community, and a number of ways of positive expression, 
but of course there are also ways that nationalism can manifest 
in more negative ways.
    Unfortunately, I think the Uighur community is not immune 
to this uglier side of nationalism, although it is a very small 
minority within a minority. And I would add that two successive 
administrations--you have, of course, noted the Bush 
administration decision to designate ETIM in 2002; and, of 
course, the Obama administration has designated at least an 
individual, Abdulhak, as a terrorist in an individual capacity, 
a Uighur-born gentleman. So two successive administrations have 
noted that, even though it is a small minority of people within 
a minority, that these are actions that must be addressed 
directly and head on.
    You did ask me and your staff asked me to talk about the 
designation of ETIM, a separatist group in northwest China in 
Xinjiang Province. This was a difficult issue for us serving in 
government. I came to the Asia Bureau after the designation was 
made, but of course my boss at the time, Deputy Secretary 
Armitage, was very directly involved.
    We viewed the Uighur community as very understandably and 
rightly wanting to shed the oppression that they face and 
wanting to improve their lot and enjoy the freedoms that we are 
grateful to enjoy here. However, we felt it was important in 
the government to have a consistent standard internationally 
when we talk about terrorist activities, whether they be 
individuals or whether they be groups; and we looked very 
closely at the U.S. State Department along with members of the 
intelligence community about this particular group.
    It was determined after a review that was based on U.S. 
information, I would add, as well as information provided by 
others, including third parties, that ETIM did meet the legal 
criteria under the Executive Order you mentioned.
    I might also add that the Chinese authorities came to us 
with requests to designate many other groups, including a group 
that went by the acronym SHAT, repeatedly, and provided reams 
and reams of information about this group. But we were well 
aware that information coming from the Chinese Government was 
likely unreliable and likely related to other political 
agendas; and, therefore, we were unable to designate that group 
as well as other groups they brought to our attention. It was 
only the ETIM group that, in our view at the U.S. State 
Department at the time, met that criteria and therefore 
received that designation.
    I know there has been criticism about that decision. I 
think that is part of what this hearing is to address. I find 
some of the charges, quite frankly, difficult to accept and 
analytically unsound.
    The suggestion that this was done solely to ingratiate 
ourselves with the Chinese and to try to enlist their 
cooperation in the global war on terror, I think if you look at 
a more comprehensive way of our approach to Xinjiang, our very 
direct criticism in the State Department Human Rights Report 
about their oppression in Xinjiang; our vigorous pursuit of the 
release Rebiya Kadeer, despite being told by the authorities 
that in those circumstances would she be released; our refusal 
to return the Guantanamo detainees to China despite a direct 
request from Hu Jintau to President Bush and Colin Powell, in 
my view, rightfully saying they would not be returned to China 
because there was no confidence they would be treated in a 
humane fashion, all of these things taken in a much more 
comprehensive light I would suggest doesn't look like a policy, 
to me, to ingratiate ourselves with China. If anything, they 
were quite upset with our policies toward the Xinjiang region 
and the very active support for the human rights in that area.
    Mr. Chairman, you and your staff also asked me to speak 
briefly about Guantanamo Bay and the situation there. I would 
simply start by saying this was a tragic situation. These 
individuals who were eligible for release should not have been 
held for as long as they were held.
    We found ourselves in very difficult circumstances in the 
Bush administration when Secretary Powell rightfully said they 
wouldn't be returned to China, but the Department of Homeland 
Security and many Members of Congress were saying, no 
detainees, no matter the country of origin, should be returned 
to the United States. That put us in a very difficult situation 
trying to find a third party and a third country to accept 
them.
    It is something that I worked on directly and found 
extremely frustrating. And I agree with you it was the morally 
courageous countries that have now stepped forward. We have 
some already returned to Albania, to Bermuda, and now working 
on others. I would certainly join you and the members of this 
committee in commending those that have already made this 
courageous decision, those who will hopefully make it going 
forward.
    Going forward, the best possible future for the Uighur 
community is for the Chinese to end the oppression and move in 
the direction of allowing greater freedoms, greater latitude in 
Xinjiang for this community of people to live their lives and 
pursue liberty as they see fit. However, in my view, we must 
also continue to deal with global terrorism. No matter the 
nomenclature--I know global war on terror is out of favor now--
but I think there is a global phenomena that must be dealt with 
directly.
    If you look at a place like China and the terrorist 
incidents we know take have taken place, irrespective of the 
source of those incidents, we must note very sober-mindedly 
that we have 1.5-2 million visitors a year visiting China. We 
have events like the Olympic Games and the World's Fair coming 
up. American citizens would not be immune were there to be a 
serious terrorist attack in a major memorial metropolitan area 
in China. This is something, again, I think we have to have a 
sober-minded view about.
    Let me close very quickly, Mr. Chairman, with some specific 
recommendations for the Obama administration and for others in 
government. I do believe the Obama administration should 
continue to make human rights and religious freedom a priority 
in our relationship with China. Any policy that is conceptually 
based on the premise that we can downgrade these issues in the 
hopes of pursuing higher priorities would be a policy, in my 
view, based upon false tradeoffs and potentially harmful 
policy.
    I think President Obama himself should use his platform and 
his very unique capabilities, his charisma, his personal 
history, to reach out to this community and to highlight the 
plight of the Uighur community.
    President Bush met with Ms. Kadeer, which I was delighted, 
while I served in government. I believe President Obama should 
do the same. I think the Obama administration should also 
endeavor, as I know they are, for the release of the remaining 
detainees, but also I think it is important that the 
administration and the Congress continue to take an interest in 
their well-being after their release. This is, after all, our 
responsibility, even once they are resettled, to make sure they 
don't face repercussions for having wrongfully been in a place 
like Guantanamo for as long as they were.
    Fourth, I think more U.S. officials and Members of Congress 
should visit Xinjiang and visit with the Uighur communities 
directly and highlight their experiences and advocate on behalf 
of this community. I would hazard a guess not many Members of 
Congress have visited places in Xinjiang, and I think this 
would be a vital addition to the public dialog.
    Finally, I think the U.S. Government should support a 
policy similar to the policy we have in Tibet, where we could 
encourage a dialog between the Chinese Government and the 
legitimate representatives of the Uighur community to talk 
about their future, to talk about what genuine autonomy might 
mean, to talk about how to improve their lives, which, in my 
view, necessitates enhancing their basic freedoms, practice of 
their faith, freedom of speech, et cetera. And I think we 
should be actively promoting such a dialog for the benefit of 
the people there.
    Again, Mr. Chairman and other members, thank you very much 
for allowing me to testify today.
    [The prepared statement of Mr. Schriver 
follows:]<greek-l>Randall Schriver deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Mr. Secretary. I look forward to 
an exchange of views with you.
    Next, we will go to Sean Roberts via a video link. And 
hopefully it is working.

  STATEMENT OF SEAN R. ROBERTS, PH.D., DIRECTOR AND ASSOCIATE 
 PROFESSOR, INTERNATIONAL DEVELOPMENT STUDIES PROGRAM, ELLIOTT 
    SCHOOL OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
                           UNIVERSITY

    [The following testimony was delivered via video.]
    Mr. Roberts. Hello.
    Mr. Delahunt. We see you.
    Mr. Roberts. Thank you, Chairman Delahunt and other members 
of the subcommittee, for inviting me today to speak about this 
important issue.
    I have been asked specifically to speak about the Eastern 
Turkistan Islamic Movement, or ETIM. I agree very much with 
Chairman Delahunt that the designation of ETIM has had grave 
consequences for the Uighur people. It, of course, directly led 
to the imprisonment of 22 Uighurs, eventually cleared of all 
wrongdoing, in the Guantanamo detention facilities for between 
5 and 7 years. Indirectly, it has allowed the Peoples Republic 
of China to evade international criticism over the last 8 years 
as it has stepped up its oppression of Uighurs' human rights in 
the name of fighting terrorism. And despite these serious 
ramifications of the ETIM's designation as a terrorism group, 
we have never and still do not know much about this 
organization or its activities.
    Given the lack of reliable information about ETIM, I will 
not claim today to paint a comprehensive picture of the 
organization. Rather, by covering five major points from my 
longer written testimony, which I encourage you to read, I will 
raise some substantial doubt about the assumptions we have made 
in claiming that it is a dangerous terrorist group linked with 
international jihadi movements.
    First, we should assume that ETIM has never been a large, 
well-organized or capable group. While there were many Uighur 
political organizations outside of China in the late 1990s, 
ETIM was virtually unknown among these groups. For this reason, 
many scholars studying Uighurs have disputed the organization's 
existence and have suggested that ETIM's designation as a 
terrorist group was merely a quid pro quo arrangement with the 
Peoples Republic of China in exchange for the PRC's support in 
the United States-led global war on terror, which we have 
already heard about.
    An interview conducted by a Western Journalist with ETIM's 
leader, Hahsan Mahsum, in 2002 appears to confirm that indeed 
the group did exist, but it also supports the assumption that 
it was a small organization with little to no outside support. 
Mahsum noted emphatically that ETIM had never received 
assistance from al-Qaeda and that it was not anti-American in 
its goals.
    In all likelihood, ETIM in 2002 was a small group of young 
religious Uighur men from China organizing in Afghanistan to 
mount a challenge to the Chinese Government's rule of their 
homeland in the Xinjiang province but lacking the capacity and 
resources to do so.
    Second, Mahsum's assertion that the group has never 
received assistance from al-Qaeda is credible in my opinion. 
Given that China was one of the few major states to have 
diplomatic and commercial interactions with the Taliban 
government at the end of the 1990s, it is reasonable to believe 
that the Taliban would have actively discouraged any Uighur 
presence in al-Qaeda or other terrorist organizations inside 
Afghanistan. This is also corroborated by South Asian media 
reports from the late 1990s which suggest the Taliban actively 
prevented Uighurs from participating in such groups at the 
request of China.
    Third, I believe it is reasonable to assume that ETIM 
ceased to exist after the Pakistani Army killed Hasan Mahsum as 
an enemy combatant in 2002. If little was heard of ETIM before 
September 11th, virtually nothing was heard from or about the 
group after Mahsum's death. The only exceptions have been 
official Chinese sources, which greatly exaggerate the group's 
reach and capacities. While Chinese authorities have continued 
to arrest Uighur nationalists inside China over the last 8 
years, claiming they are----
    Mr. Delahunt. We will pause for technical difficulties. I 
am just hoping that someone out there knows what they are 
doing, because I certainly do not.
    I would like to welcome to the panel the gentleman from 
Minnesota, Mr. Keith Ellison. If the gentleman would like to 
make a statement we have got, it looks like, a couple of 
minutes. The gentleman declines. That is probably a good 
decision.
    Mr. Roberts. Hello.
    Mr. Delahunt. Hello, we are back up, Professor. Thank you.
    You were on your third point. You were talking about after 
the death of Mahsum in 2002, to paraphrase, it would appear 
that we have not heard anything about or from ETIM, if I am 
fairly characterizing your testimony. That is where you were 
when the screen went blank.
    Mr. Roberts. Okay. Well, thank you. Let's hope we get 
through the rest of it without it going blank again.
    I just wanted to say that in terms of that, the only 
exceptions were Chinese, official Chinese sources which greatly 
exaggerate the group's reach and capacities. While Chinese 
authorities continued to arrest Uighur nationalists inside 
China over the last 8 years, claiming that they are members of 
ETIM, these arrests have generally not been in response to acts 
of violence but are related most often to political dissent. 
Furthermore there is not credible evidence I have seen that 
those arrested in China have any connections with militant 
groups, real or imaginary, in Afghanistan or Pakistan.
    My fourth point is it is highly unlikely that the violence 
or the alleged planned terrorist attacks in Xinjiang during the 
Olympic Games last summer were perpetrated by the ETIM or any 
other organized terrorist groups with ties to international 
jihadi groups. That were no sophisticated explosives used or 
found on those arrested. And the most publicized attack, which 
involved two Uighur men allegedly driving a truck into a line 
of Chinese soldiers and then attacking them with knives in the 
city of Kashgar, looked more like an act of desperation by 
frustrated individuals than a well-planned act of terrorism.
    Finally, fifth and most importantly, there is no conclusive 
evidence that ETIM or any Uighur organization for that matter 
has ever perpetrated a sophisticated and coordinated terrorist 
attack inside or outside of China. While the Chinese Government 
has claimed that various acts of violence in Xinjiang in 
Central Asia over the last decade were the work of ETIM, this 
has never been proven and the acts of violence themselves may 
not have even been acts of terrorism. No Uighur group has ever 
been tied to well-known methods of terrorism such as car 
bombings or suicide bombings which might confirm links to 
transnational groups. Instead they have been accused of 
organizing disturbances and assassinations which could be 
alternatively explained by a variety of other motives from 
popular political dissatisfaction to personal vendetta and even 
crime-related violence.
    Now, given the lack of evidence that ETIM is an active 
terrorist group or even an active organization anymore, it is 
particularly disturbing that the United States' decision to 
recognize it as a terrorist group has caused substantial 
suffering to the Uighur people.
    So the question that I would like members of the 
subcommittee to ponder is what led us to recognize this group 
as terrorists. Was it merely a quid pro quo arrangement with 
the Chinese in order to obtain their support in the global War 
on Terror; or, as Chairman Delahunt suggested, does this 
reflect a serious defect in how we have gathered intelligence 
about terrorist groups over the last 8 years.
    I would be very interested to hear--and it is likely still 
classified--but I would like to hear from Assistant Secretary 
Schriver what kind of U.S. intelligence do we really have about 
this group. I think either of these answers to the question are 
unacceptable and have critical ramifications for how we 
continue to fight terrorism around the world.
    Thank you very much, and thank you for bearing with 
technical difficulties.
    [The prepared statement of Mr. Roberts 
follows:]<greek-l>Sean Roberts deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you. And please stay with us, Professor 
Roberts.
    And our next witness is Dr. Gladney from Pomona, via 
Hawaii.

 STATEMENT OF DRU C. GLADNEY, PH.D., PRESIDENT, PACIFIC BASIN 
                   INSTITUTE, POMONA COLLEGE

    Mr. Gladney. Before I start, I should acknowledge my great 
pride and joy to see Sean Roberts, who I had the honor of 
serving very temporarily as his professor at USC, and I see 
that he is still prospering and doing great work. Great to see 
you, Sean.
    Honorable Chairman, distinguished members of the 
Subcommittee on International Organization Human Rights and 
Oversight, it is my privilege to testify to you today in the 
case of the Uighur people. It is my firm belief--and this is 
based on over 25 years of personal field research, mostly in 
the region of Western China and including Xinjiang--that there 
is very little evidence to support the claim that the people in 
question, either the detainees in Guantanamo Bay or the Uighur 
people in general, are terrorists. Many of them could not 
either be accurately described as freedom fighters.
    The vast majority of the nearly 10 million people known as 
the Uighurs--and in my longer testimony I provide up-to-date 
population figures and maps and things like that for those who 
need a general background information--living primarily in the 
province of Western China known as the Xinjiang Uighur 
autonomous region, which most Uighur and all pre-1940 maps of 
the area refer to as Eastern Turkistan, and you can still find 
those maps in bookstores today. They are upstanding citizens of 
the People's Republic of China, primarily agriculturalists and 
urban city developers in the largest cities and oases across 
that great region, one-sixth the size of all of China, the 
largest province in China. They are still the largest 
population group in the region, and, as an official minority 
nationality, receive certain special privileges along with 
certain other minorities, many of them also Muslims, including 
Kazakhs, Kyrgyz, Uzbeks, et cetera. But they are now being 
surpassed in population by a growing number of Han Chinese 
settlers from the interior of China.
    And, Honorable Chairman, I would submit that this is the 
primary reason for the civil unrest and violence that we see in 
the region. Very little to do with terrorism; has much more to 
do with policies of development and integration of that 
province.
    In a report below, I will argue that the incidents of 
violence that have occurred in the region are best understood 
as incidents of civil unrest. And the state of China last year 
admitted publicly in print, the government, that there were 
over 100,000 separate incidents of civil unrest in China across 
the country.
    So the few that we do see in Xinjiang are just as likely 
civil unrest rather than terrorist acts. And these incidents 
can rarely be described as terrorism in the traditional sense 
of the term, which I take to mean random acts of violence 
against civilian populations.
    The struggles for the independence of the Uighur people 
from the Chinese nation-state that have taken place since its 
incorporation in 1949 are best understood in the context of 
efforts to attain sovereignty. Coming from many, many years in 
the great State of Hawaii, we also know of other sovereignty 
movements that are not labeled as terrorists. And it is not a 
religiously or Islamic-inspired campaign, except for the fact 
that the Uighur or Muslim people, their concerns and issues 
resemble that of Tibet. And the occasional violence that takes 
place in the Tibetan autonomous region in China and protests 
against Chinese rule are rarely, if ever, described as 
terrorists.
    As will be demonstrated below, the characterization of the 
Guantanamo Uighurs as ETIM terrorists by Speaker Gingrich is a 
misnomer at best, and, at worst, a calculated 
mischaracterization of a group of people whom the Bush 
administration and the Department of Defense determined 
comprise no threat to the United States, and the majority of 
whom are noncombatants.
    At the same time, this testimony will show that the region 
of Xinjiang has been extremely peaceful since the late 1990s, 
and rather than a site of terrorist independence it has been 
caught up in an economic boom that would be the envy of any of 
its surrounding Central Asian states. This testimony will not 
support an independent Uighuristan or a separate state, lest it 
fall into the same turmoil as its Central Asian neighbors, but, 
rather, encourage direct autonomy, direct engagement of the 
Chinese with the Uighurs, to better understand their concerns 
and complaints, a dialogue that was also suggested by Randy 
Schriver in his final remarks, a dialogue that to this date has 
never taken place, despite the fact that there have been many 
dialogues, meetings and high-level encounters between official 
representatives of the Chinese Government and the Tibetan 
exile--government in exile. Nothing like this at any level has 
happened with the Uighurs.
    And also the need for the U.S. to not contribute support, 
even if inadvertently, to any separatist or Islamic sentiments 
that might be brewing in the region. Indeed, I should comment 
that--and I mentioned this in my report--that unfortunately, I 
think partly as a direct result of U.S. policy toward these 
Uighurs, a growing anti-U.S. sentiment has been experienced in 
the region.
    Speaking from over 25 years of travel and research, 
learning the local languages, I can account for the fact that 
now it is not the same as it was 20 years ago when Americans 
were regarded widely in this part of the world, 20 million 
Muslims, as a supporter, as a potential haven, and as a strong 
advocate of human rights and religious freedom. Today when 
those of us do travel to China, we are just as likely to expect 
to not be welcomed into mosques and Muslim homes in China as we 
are. And this is a real sea change over the last several years.
    Indeed China itself should be congratulated for the 
enormous economic and social transformation of the region over 
the past two decades, but at the same time should be encouraged 
to find ways to preserve and promote the vibrant and 
extraordinary Central Asian civilization that Uighur culture 
represents.
    I won't go through the rest of my testimony. As I 
mentioned, there are many maps and charts and population 
figures to document the tremendous transportation of this 
region over 20 years. It is really a booming economy, a magnet 
for migration.
    But I will mention that on the subject of ETIM, along with 
my colleague Sean Roberts, I do detail a large number of other 
organizations, that were as equally active as ETIM in the late 
1990s, that claimed responsibility for direct acts of violence 
that never received any attention. Particularly on pages 23 and 
24 there are charts that list, and even an anthropological 
graph of groups that I thought were much more violent, or at 
least claim to be more violent than ETIM. So it is always a 
surprise for those of us who study this issue that ETIM itself 
was singled out.
    I will just mention, of course, that many of these groups 
go by names and labels that have eastern Turkistan in the 
title, and this is generally in about five different languages, 
not only Chinese, Uighur, but also the other Turkic languages, 
if it is in Central Asia and Uzbek. But we are also dealing 
with the Pakistani languages, Urdu, Pashtun, so it is not 
surprising that some of these groups could be easily conflated. 
But to suggest that all of them, all these incidents of 
violence were coordinated by any one single group, struck many 
of us as rather unbelievable at the time. And at the time many 
of us raised this objection, but we were quickly swept away as 
not really knowing what was happening in the country.
    So I will conclude that the history of Chinese Muslim 
relations in Xinjiang, as Jim Millward's most recent book 
documents extremely well, have been relatively peaceful and 
quiet, broken by enormous social and political disruptions 
fostered by both internal and external crises. Indeed, as those 
of us who study this issue have documented, since about 1998 
there were no reported incidents of violence up until, really, 
until the Olympics.
    The chairman, party chairman of Xinjiang reported, as you 
quoted in your report in 2001, this was at a trade bazaar and 
he was trying to encourage tourism and investment in the 
region, and this is why he was so sanguine about the 
peacefulness of the region at the time, 2 weeks prior to 9/11.
    The relative quiet of this last decade does not indicate 
that the ongoing problems of the region have been resolved or 
opposition dissolved. This is in response to many travel 
reporters who will go to the region and say, ``Oh, there are no 
problems here, people are happy, booming economy, migration is 
up.'' That actually masks a lot of what is going on underneath 
the surface.
    Those of us who speak the language, who have traveled the 
region over the last couple of decades, have seen that the 
surface does not always tell the whole truth. The opposition to 
Chinese rule in Xinjiang has not reached a level of a Czechnia 
or an Intifada, but similar to the Baath separatists or the ETA 
in Spain or former IRA in Ireland and England, it is one that 
may erupt in limited violent moments of terror and resistance.
    And just as these oppositional movements have not been 
resolved in Europe, in Latin America, or in even the United 
States, we have our own problems with domestic terrorism. The 
Uighur problem in Xinjiang does not appear to be one that will 
readily be resolved. The admitted problem of Uighur terrorism 
and dissent, even in the diaspora, is as problematic for a 
government that wants to encourage integration and development 
in a region where the majority are not only ethnically 
different but also devoutly Muslim.
    How does a government integrate a strongly religious 
minority, be it Muslim, Tibetan, Christian or Buddhist, into 
what I call a Marxist capitalist system. China's policy of 
intolerance toward dissent and economic stimulus has not seemed 
to have resolved this issue. As a responsible stakeholder, 
China should find ways to open dialogue with representative 
Uighur individuals and groups to better cooperate in finding 
solutions to this ongoing problem. There has been much progress 
and relatively peaceful development in this important region. 
Surely a dialogue can be opened up in order to help ensure a 
more prosperous and peaceful future for both Uighur and Han 
Chinese alike.
    Thank you sir.
    [The prepared statement of Mr. Gladney follows:]

    <greek-l>Dru Gladney deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Thank you, Professor Gladney.
    Next we will go to Ms. Kan.

  STATEMENT OF MS. SHIRLEY KAN, FOREIGN AFFAIRS, DEFENSE, AND 
         TRADE DIVISION, CONGRESSIONAL RESEARCH SERVICE

    Ms. Kan. Good morning. I am Shirley Kan, and I am honored 
to testify before you on this important question. And I work 
for CRS so I will just try to stick to some objective 
assessments without any of the policy recommendations of Randy 
and others.
    The United States faced a dilemma after the September 2001 
terrorist attacks of enlisting China's full support in their 
international fight against terrorism, but without being 
complicit in China's crackdown against Uighurs.
    Human rights and Uighur groups have warned that after the 
9/11 attacks, the PRC shifted to use the international 
counterterrorism campaign to justify the PRC's long-term 
cultural, religious, and political repression of Uighurs both 
inside and outside of China.
    The Uighurs have faced crackdowns by the PRC Government for 
what it combines as the threat of so-called three ``evil 
forces'': That is, separatism, extremism and terrorism, thus 
combining nationalism, religion, and charges of terrorism. If 
the Uighurs have grievances, they are very directly targeted 
against the PRC regime.
    The Bush administration's decision in 2002 to designate one 
Uighur-related organization called the ``East Turkistan Islamic 
Movement'' as a terrorist organization was controversial both 
inside and outside of the government. Since then, the United 
States has refused to designate any other Uighur groups charged 
by China as ``terrorist organizations.''
    Deputy Secretary of State Richard Armitage personally 
announced while on a high-profile visit to Beijing on August 
26, 2002, that after months of bilateral discussions, he 
designated ETIM as a terrorist group that committed acts of 
violence against unarmed civilians.
    Later, Assistant Secretary of State James Kelly defended 
the designation as a step based on independent ``U.S. 
evidence'' that ETIM had links to al-Qaeda and committed 
violence against civilians, ``not as a concession to the PRC,'' 
he said. The State Department designated ETIM as a terrorist 
organization under Executive Order 13224. Later in 2004, the 
Secretary of State also included ETIM in a ``Terrorist 
Exclusion List'' to exclude certain foreign aliens from 
entering the United States.
    However, the United States has not further stigmatized ETIM 
by naming it to the primary U.S. list of terrorist 
organizations. The State Department has not designated ETIM on 
the list of Foreign Terrorist Organizations. Before 2008, the 
last bombing incident in Xinjiang was reported in 1997. 
Although many Uighur or East Turkistan advocacy groups around 
the world have been reported for decades, the first available 
mention of ETIM was found in 2000. Xinjiang has basically been 
a peaceful area.
    But after the September 11, 2001 attacks, China issued a 
new report in January 2002, charging ETIM and other ``East 
Turkistan terrorist groups''--they are put in this vague term 
of ``East Turkistan terrorist groups''--charging them with 
attacks in the 1990s and linking them to the international 
terrorism of al-Qaeda.
    In December 2003, the PRC's Minister of Public Security 
issued its first list of wanted ``terrorists,'' accusing four 
groups as--again this vague term--``East Turkistan terrorist 
organizations,'' and also 11 individuals, who were all Uighurs, 
as ``terrorists,'' with Hasan Mahsum at the top of that list. 
However, the list was intentionally misleading or mistaken, 
because Mahsum was already dead. Pakistan's military reportedly 
killed Mahsum--ETIM's reported leader--and others on October 2, 
2003, in Pakistan. Then the leadership of what it called the 
Turkistan Islamic Party (TIP) announced in December 2003 that 
former Military Affairs Commander, Abdul Haq, took over as the 
leader. However, the PRC's Ministry of Public Security did not 
list Abdul Haq.
    Two months ago, in April, the Treasury Department 
designated Abdul Haq as a terrorist and leader of the East 
Turkistan Islamic party (ETIP) another name something for ETIM, 
again targeted under Executive Order 13224.
    The Treasury Department declared that Haq, in January 2008, 
had directed the military commander of ETIP to attack cities in 
China holding the Olympic Games. But Treasury did not state 
that such attacks actually occurred. Also Treasury noted that 
as of 2005--that is, 4 years prior, Haq was a member of al-
Qaeda's Shura Council, that is the consultative group. In the 
same month, the U.N. Security Council listed Haq as a Uighur, 
born in Xinjiang in 1971, the leader in Pakistan of ETIM, and 
an individual specifically associated with al-Qaeda (rather the 
Taliban).
    In 2008, there were videos threatening the Olympic Games, 
posted to the Internet by a group calling itself TIP, and 
several violent incidents, apparently unrelated to the Olympic 
Games, both in primarily Han--that is, ethnic Chinese--cities 
of eastern and southern China and in Xinjiang in the far West. 
Nonetheless, the Olympic Games took place on August 8 to 24, 
2008, primarily in Beijing, with no attacks directed against 
the events.
    In another video in Uighur posted to YouTube in February 
2009, a group calling itself TIP again discussed organizing in 
Afghanistan in 1997, the leadership succession from Hasan 
Mahsum to Abdul Haq, oppression by China against the Uighurs, 
and China's concerns about the Olympic Games in 2008. It showed 
photos of bombings in Eastern and Southern China in May and 
July 2008, and videos of training in the use of various 
weapons. However, there was no reference to al-Qaeda or the 
violent incidents reported in Xinjiang in August 2008.
    In addition to designations on the U.S. terrorism lists and 
assessments of any threats against the 2008 Olympic Games, U.S. 
policymakers have faced a dilemma of how to resolve the fates 
of 22 Uighur detainees at Guantanamo. While arguing that the 
United States had reason to detain the 22 ethnic Uighurs at 
Guantanamo during the early chaotic days of the war in 
Afghanistan, the executive branch nonetheless began to contend 
in 2003 that at least some of the Uighurs could be released; 
and then conceded, in 2008, that all of them were no longer 
enemy combatants.
    However, the Uighurs posed a particular problem, because 
the United States would not send them back to China where they 
would likely face persecution, torture, and/or execution. Even 
without having custody of these Uighurs, the PRC has already 
branded them as ETIM members and suspected terrorists.
    The Departments of Defense and State have sought a third 
country to accept them. In 2006, only Albania accepted five. 
However, the Bush administration did not grapple urgently with 
how to release the 17 remaining Uighurs until mid-2008 and 
offered conflicting assessments about the Uighur detainees 
before finally declaring them as not dangerous and suitable for 
release both to third countries or in the United States.
    In July 2008, the Under Secretary of Defense for Policy 
wrote to the chairman and the Ranking Republican that many of 
the Uighurs detained at Guantanamo received what he called 
``terrorist training'' at a camp run by ETIM. He also wrote 
that ETIM received funding from al-Qaeda. However, he 
nonetheless stressed that the Departments of State and Defense 
aggressively have asked over 100 countries to accept those same 
detainees.
    Moreover, in September 2008, the Justice Department 
conceded in a court filing that all of the 17 remaining Uighur 
detainees were no longer enemy combatants. But in the next 
month, the Justice Department argued against their release in 
the United States due to their dangerous ``military training,'' 
thus undermining the State Department's ongoing diplomacy with 
foreign countries to accept them as not dangerous.
    Then in February 2009, the Department of Defense's review 
of the detainees, led by the Vice Chief of Naval Operations, 
confirmed that they are not security threats, since they were 
moved to the least restrictive area called Camp Iguana. 
Afterwards, Defense Secretary Robert Gates himself testified in 
late April that ``it is difficult for the State Department to 
make the argument to other countries that they should take 
these people that we have deemed in this case to be not 
dangerous, if we won't take any of them ourselves.''
    In February, Sweden awarded asylum to one of those Uighurs 
who had gone to Albania. In early June, Palau agreed to accept 
Uighur detainees, and Bermuda accepted four of them. Another 
option has been resettlement in the United States. Thank you.
    [The prepared statement of Ms. Kan 
follows:]<greek-l>Shirley Kan deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you Ms. Kan.
    And next we will go to Ms. Susan Baker Manning.

    STATEMENT OF MS. SUSAN BAKER MANNING, PARTNER, BINGHAM 
                           MCCUTCHEN

    Ms. Baker Manning. Good morning, Chairman Delahunt, Ranking 
Member Rohrabacher, other members of the subcommittee. I very 
much appreciate the opportunity to address you this morning. 
Again, my name is Susan Baker Manning. I am a partner with 
Bingham McCutchen, and I have represented for many years a 
number of the Uighur detainees at Guantanamo. That includes the 
four men who were released to Bermuda last Thursday, to our 
great joy. It includes some of the people released to Albania 
in 2006, including the gentleman we see in the picture over 
here, whose name is Abdul Hakim, and I represent two more of 
the 13 Uighur men who languish at Guantanamo even today, even 
though they have long been cleared for release and their 
innocence is widely, if not universally, recognized.
    I have been asked to address, by your staff in particular, 
some of the issues related to the Parhat v. Gates decision by 
the DC Circuit. In Parhat v. Gates, the DC Circuit looked at 
the evidence that the Department of Defense had compiled to 
rationalize the detention of Hozaifa Parhat, one of the four 
men now in Bermuda. And I think it is important to emphasize 
``rationalize'' the detention of Hozaifa and the other men. 
There is no evidence that we have ever seen in the 4 long years 
of vigorous litigation that the original justification for 
detaining any of the Uighur men was an affiliation with ETIM or 
with any other ostensible Uighur organization of any kind.
    But it is abundantly clear that when the Department of 
Defense was forced to state a rationale in a public way for 
their detention in 2004, 2005, in the wake of the Supreme 
Court's Rasul decision, that ETIM became the hook for doing 
just that.
    And so I am happy to address any of the many, many facets 
of the Uighur cases in the Uighur situation, but I will focus 
in this particular testimony on the Parhat decision and its 
analysis of the facts, and, in particular, its analysis of the 
evidence related to ETIM.
    The DC Circuit was the first court to ever look at the 
evidence in any Uighur case. It is not the only one to do so. 
And any court that has ever looked at the evidence has ruled 
for the Uighurs, but it was the first one.
    Mr. Delahunt. Let me interrupt you at this point in time. 
If you can state for the record--we are not asking you to 
disclose--but the information that the court had access to 
included both unclassified and classified information; is that 
correct?
    Ms. Baker Manning. Yes, sir, that's right.
    Mr. Delahunt. Thank you.
    Ms. Baker Manning. And the information that the court was 
analyzing in the Parhat case consisted of the hearing record of 
the Combatant Status Review Tribunal.
    And if you will indulge me for backing up a moment just to 
sort of frame the procedural process here. In 2005 when 
Congress passed the Detainee Treatment Act, which purported to 
strip the Federal courts of habeas jurisdiction to consider 
Guantanamo cases, something that was found to be unlawful by 
the Supreme Court.
    But at that time, Congress created a new cause of action 
that would allow any Guantanamo detainee to challenge the basis 
of his detention in the DC Circuit. There were a limited number 
of questions that could be addressed in a DTA proceeding, but 
one of those was whether the detainee's classification as an 
enemy combatant was justified by a preponderance of the 
evidence. The evidence before the Combatant Status Review 
Tribunal was, we think, the government's best case. It was 
certainly their opportunity to put together in a robust way, in 
a way that would ultimately become public and was expected, 
frankly, to ultimately become public, to put forward their best 
case to, again, not justify in the first instance, but to 
rationalize the detention of people who had already been in 
prison at that time for many, many years.
    And in the case of the Uighurs, by the time the CSRTs were 
conducted, the great majority of them had already been cleared 
for release and the Bush administration was actively seeking 
new homes for them. Nevertheless, they were put through the 
CSRT process, to the surprise of certainly members of the State 
Department and others who were on record as noting they thought 
that that was surprising, if not inappropriate, given that they 
had already been cleared for release.
    If I can also by way of stepping back just note a couple of 
things that were undisputed--that are undisputed. We have seen 
a lot of misinformation recently about who the Guantanamo 
detainees are. We have heard discussion of Speaker Gingrich's 
disturbing comments and willingness to send them to their 
deaths in China. And we have heard a great deal of information, 
sort of accusations, and I should say slander, from people who 
suggest that these are al-Qaeda terrorists and the like. That 
is simply not true. There has never been any allegation of that 
and certainly never been established.
    So, if I can remind us all of a couple of the key facts. As 
I and others have noted, the military has cleared every single 
one of the men, Uighur men, at Guantanamo for release. The 
great majority of them were cleared for release 6 years ago, in 
2003. The Bush administration conceded, as Ms. Kan noted, in 
2008 that none one of them was an enemy combatant.
    Now, that takes on the language of ``no longer an enemy 
combatant.'' I have got a Federal judge who has written an 
opinion calling that term Kafkaesque. If you are not an enemy 
combatant, you were never an enemy combatant. These men were 
never enemy combatants. They should never have been in 
Guantanamo. And when that error was realized, they should have 
been released immediately. Two Federal Courts, as I will detail 
a little bit more, have taken a look at the evidence. Both the 
DC Circuit----
    Mr. Delahunt. I am going to interrupt you once more, 
because I think this is very important. You are in a 
particularly--you have a particular perspective that no one 
else has. I know I have not, nor the ranking member, nor 
members of the committee sought access to classified 
information. You are not disclosing it, I understand that. But 
you have reviewed these records in detail.
    Ms. Baker Manning. Yes, sir.
    Mr. Delahunt. You have had access to this information. 
Would you state--was your statement unequivocal that there was 
no evidence that the individuals whom you represented had any 
links whatsoever to al-Qaeda; is that an accurate statement?
    Ms. Baker Manning. That is an accurate statement, sir. And 
you don't even need to rely on my representation for that; you 
can rely on the DC Circuit for that. There is no connection 
whatsoever to these men and al-Qaeda and the Taliban.
    Mr. Delahunt. I think that is really important, because 
what we are hearing today from Members of this body is that 
there are links. Let's start to disassemble that inaccurate 
statement. I thank you.
    Ms. Baker Manning. Thank you, sir. That is just wrong.
    One of the interesting things that we have seen since the 
four men were released to Bermuda is, if you read your paper 
yesterday, you will see a number of articles reporting 
statements, reporting the things that they have never been able 
to tell the world, things they have been telling me for years: 
We had never heard of al-Qaeda until we were questioned about 
al-Qaeda in Guantanamo.
    The great majority of them had never even heard of ETIM 
until they were questioned by interrogators about ETIM. These 
are important things.
    Mr. Delahunt. I am going to, because I have been 
interrupting you, I am going to ask you just to wrap up right 
now because I want to give my time and his time to the 
gentleman from California. But I know he will have a number of 
questions to you.
    [The prepared statement of Susan Baker Manning 
follows:]<greek-l>Susan Manning deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. But I did read those statements, that 
according to these individuals, they had never heard of al-
Qaeda, they had never heard of this so-called ETIM or ETIP. It 
seems to have changed names according to the need of the 
moment. But we will get back to you.
    Let me just conclude with my friend from Washington, DC, 
and I would ask him to be concise so that we can let 
Congressman Rohrabacher have 20 minutes or so, whatever he 
needs. And I want to assure the rest of the panel over here I 
don't intend to pose questions until everyone else has an 
opportunity, so I will try to bat clean-up. Bruce.

 STATEMENT OF BRUCE FEIN, ESQ., PRINCIPAL, THE LITCHFIELD GROUP

    Mr. Fein. Thank you, Mr. Chairman. I will try to be brief, 
as a concession to the shortness of life, about the importance 
of these issues that you have addressed today.
    I want initially to begin to suggest that the Founding 
Fathers would be shocked at the necessity of this hearing. I 
think also this committee and the Congress is responsible for 
the fact that it was the executive branch that was enabled to 
unilaterally label this group as a terrorist organization 
without any due process of the law. This Congress today could 
end that.
    You just pass a bill I could draft in 10 minutes that says 
no moneys in the United States can be utilized to list ETIM as 
a terrorist organization. It is another example of how over the 
years Congress has forfeited its obligation to police national 
security matters to the executive branch.
    Why did you authorize this monstrous violation of due 
process of law, this listing in secret? No one has an 
opportunity to defend. No judicial review anywhere. That is the 
responsibility of this Congress to take this power back. And 
the abuse is there, because you let the executive branch get 
away with it. That is the first thing to remember. All this 
pointing the finger at Bush and Obama and whatever, the buck 
stops here. We the people are sovereign.
    The second thing I want to say is we need to remember who 
we are as a people. This hearing is about the United States of 
America, every bit as much as it is about the Uighurs, what we 
stand for as principles.
    And let me just give a personal--you know I grew up in 
Concord where you did, Mr. Chairman. One of the first things I 
memorized was the Concord Hymn:

By the rude bridge that arched the flood.
Their flag to April's breeze unfurled.
Here once the embattled farmers stood.
And fired the shot heard round the world.

    And we wrote in our own charter, the Declaration of 
Independence, the circumstance that justified rising up against 
a government that was violating those unalienable rights to 
life, liberty and the pursuit of happiness and establishing a 
new government. And it says when you are subject to a long 
train of abuses that evince a design to reduce the people to 
tyranny, you not only have a right, a duty to revolt.
    And let's apply that standard to the Uighurs here and what 
terminology accurately describes them. Now, Ms. Kadeer should 
be there with Lexington Green with those other eight who died 
at the Battle of Lexington and Concord, rather than listed as 
an association of some kind of terrorist organization.
    We, the United States people, said we have a right to 
revolt if we are denied right to jury trial, if the prologue 
legislatures to distant places, if there is a subordination of 
the civil authority to the military authority, if there is no 
independent judiciary. These are trifles compared to what the 
Uighurs are suffering. They don't get any trial at all, not to 
say a jury trial. Do they get to elect their leaders? No 
taxation without representation was the cause of our 
revolution. They don't get any vote at all in any circumstances 
whatsoever.
    And I think that we have come as a Nation--it is not just 
the Uighurs--to embody the psychology of the empire instead of 
recognizing the roots, who we are as a people. Why are we 
selling these people who have the same right we had to throw 
off the bonds of vassalage, and we are criticizing them because 
they may voice protest, even though it is largely nonviolent.
    We have Sheila Jackson Lee. Mr. Ellison, remember John 
Brown at Harpers Ferry? That became the Battle Hymn of the 
Republic. Are you going sit there and do nothing in consequence 
of this enormous oppression? The fact that the United States of 
America refused--not only the executive branch but the Congress 
could have enacted a law that says those 17 Uighurs are hereby 
permanent residents of the United States--did nothing, that is 
a disgrace.
    We care more about the Chinese buying our bonds than 
showing our true character? That is a disgrace. I am humiliated 
to be an American associated with that. We go to Bermuda and 
Palau. We have all the power in the world to defend ourselves. 
It just to me it is an insult.
    And the last thing. It is the United States of America and 
our character that is at issue here. The Uighurs should not 
have to go through this again. We should not have the executive 
branch being able to list these people as terrorists, or 
anybody else, without any due process of law.
    We had that in our own experience in the United States. It 
was called McCarthyism. We used to have a list of subversive 
organizations that the Attorney General promulgated without any 
due process, and it was held illegal by the United States 
Supreme Court, Joint Anti-Fascist Refugee Committee v. McGrath. 
And we got rid of that.
    We should know by now when you give authority to do things 
in secret, the danger will be inflated and it will be 
manipulated and there will not be justice.
    I will stop now and take questions there, but I can't 
emphasize----
    Mr. Delahunt. I am thinking you should just keep rolling 
on, Mr. Fein.
    Mr. Fein. And the last thing is, again, this is the 
mentality of the people. To a hammer everything looks like a 
nail; to a counterterrorist, everything looks like a terrorist. 
And that is why you need checks. That is why you need due 
process of law here. And we just think about a comparison 
today. We find in the streets of Tehran people are rising up 
and saying, no, their election was fraudulent. The United 
States isn't condemning these people as terrorists. Well, they 
don't even have elections in Xinjiang. At least they had the 
pro forma pretense in Iran. And we even have the audacity to 
suggest they are terrorists. I won't say anymore because I 
think our own history speaks for itself.
    [The prepared statement of Mr. Fein follows:]<greek-l>Bruce 
Fein deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Well, thank you Mr. Fein, and we admire your 
passion. And I think you know that I, too, have been an 
advocate for recapturing, if you will, the role of the first 
branch in the proper constitutional order as envisioned by our 
founders. And I too agree that we have ceded too much to the 
Executive. And that has to come to an end or we will become a 
Parliament that one could describe as more in the nature of the 
Chinese Parliament as opposed to the United States Congress. 
And we have to take back that authority.
    And you are right about secrecy. And that is why we will 
go, if we are invited and if we can work it out, we will go to 
Bermuda and listen to what these men have to say to us and to 
the American people. It is time that everyone be given an 
opportunity to speak out. Secrecy promotes utilitarianism and 
totalitarianism.
    With that I yield to my friend from California, and then we 
will go to Eni, and then I want to recognize, too, that we have 
been joined by the gentlelady from Texas, Sheila Jackson Lee. 
And by the way, that distinguished white-haired gentleman from 
Virginia--who I am often confused with, I guess we Irish look 
alike--Jim Moran.
    Mr. Rohrabacher. I think it behooves me to note that while 
I do agree with the chairman and most of the witnesses on a 
large percentage of what has been said today, rather 
significant percentage, there are areas of disagreement that I 
have. And I would like to just mention those in passing, as we 
get on to the discussion specifically of the Uighurs.
    I do not agree with the last witness whatsoever, his 
assessment of what is going on since 3,000 of our citizens were 
slaughtered, 3,000 of our citizens were slaughtered in front of 
our face. This is not just a criminal situation where we can 
give rights that are guaranteed to the citizens of the United 
States to people who are captured in a battlefield situation 
across the world.
    I believe we have not had other thousands of people 
slaughtered because the <greek-l>the  deg.situation in 
Guantanamo has prevented that. But when you agree with that, as 
I do, and that is being my position, it would behoove us, I 
believe, that we should have a very, and, I would say, forceful 
policy toward people who are highly suspected of being involved 
in this terrorist network that is out to slaughter Americans, 
as they already have. Then it also behooves me to say and all 
of us to say that, because we have not extended these same kind 
of rights, because that would hinder our efforts to protect our 
own people, we must be--how do you say--we must be absolutely 
committed to admitting mistakes when the mistakes are made and 
recognized.
    The problem that we have here is not that we fought a war 
without giving constitutional rights to people who were engaged 
with military activities in Afghanistan, which had just served 
as a basis for attack that caused so many deaths, more deaths 
than were caused at Pearl Harbor. But our problem is, once it 
was recognized, that there was an error that was made in terms 
of the Uighurs. Our people did not admit that mistake. And our 
leaders, demonstrated by Mr. Gingrich as well as other leaders, 
showed a distinct lack of courage, and in fact showed actually 
worse than that by suggesting that we send the Uighurs back to 
China, that they showed their own level of commitment to truth.
    And I would suggest--I am sorry, people are fallible, and I 
do not believe as you just suggested that we should be in any 
way extending constitutional rights in a wartime situation. And 
if we did, I really believe that there would be many, many more 
dead Americans right now. But at the same time, I would agree 
with witnesses and agree with your assessment.
    I might add to Mr. Fein, I certainly agree with your 
assessment that the Uighurs and other people like them should 
be considered as on par with our Founding Fathers. The fact is 
that there are people all over the world who long for freedom, 
long for democracy, long to control their own destinies. The 
American people should be on their side. We should never be on 
the side of the oppressor; we should always be on the side of 
the oppressed.
    That is the challenge that was given to us by Thomas 
Jefferson and George Washington and all those other people 
throughout our history who struggled to maintain the principles 
our country was founded upon.
    So while I may be someone who believes in the mission that 
set up Guantanamo, and believe in enhanced interrogation, I 
certainly understand that the United States fell short in the 
case of the Uighurs, and perhaps in some other folks in 
Guantanamo too. It is possible other people--after all, we have 
freed from Guantanamo hundreds of prisoners. Hundreds of 
prisoners have been freed who went there, and that kind of was 
an admission of mistakes. But we also know that a significant 
number of the prisoners that were freed ended up going back and 
killing Americans on the battlefield.
    I am sorry; my loyalty is to the people of the United 
States. But I think how we show that is also that we remain 
true to the fundamental principles that make us Americans. 
After all, we are from every religion, every ethnic group, 
every part of humanity is here in the United States of America. 
What makes Americans, hopefully, is a commitment to liberty and 
justice for all, and giving them the ability to have self-
determination in the East Turkistans of the world.
    So with that said, let me go into a little bit about this 
specific case. Shall I say, Mr. Secretary or Mr. Assistant 
Secretary, do you believe that the reports that were provided 
you and the administration about acts of violence were based on 
direct knowledge by American intelligence, or were those 
reports provided by Chinese intelligence to our own people?
    Mr. Schriver. Congressman Rohrabacher, my strong impression 
is that it was based on a comprehensive view of information 
available. But the information provided by the Chinese was not 
taken at face value. One of the reasons some have raised the 
questions why ETIM, why not these other organizations, the 
information provided by the Chinese had to be corroborated by 
the United States. Information also had to be collected 
independently of information provided by the Chinese and by 
third parties as well. So in the case of that, that criteria 
was met.
    Mr. Rohrabacher. So we have that many agents out there in 
East Turkistan to verify these acts of violence. Maybe I am 
mistaken. Do we have that many agents out there verifying all 
these things?
    Mr. Schriver. Well, my understanding is when this specific 
case was being worked, dedicated people to this effort, 
including people from our embassy and consulates, do a proper 
investigation to either corroborate what the Chinese had 
provided or to collect independent information.
    Mr. Rohrabacher. On all of these 200 cases of reported 
violence.
    Mr. Schriver. I suspect not, Congressman.
    Mr. Rohrabacher. I would suspect not, too.
    Mr. Schriver. But I think what the statement said is that 
there were reportedly claims of this many attacks. It didn't 
verify.
    Mr. Rohrabacher. And did we verify independently the 
existence of the ETIM?
    Mr. Schriver. Well, I didn't hear anybody suggest that it 
didn't exist. In fact, a previous panelist suggested that the 
leader himself had been interviewed. So I think, again, there 
is a question of why this organization and not others. And I 
would return to the point that this was an organization that, 
for whatever reason, limited itself to independent 
corroboration and a proper investigation.
    Mr. Rohrabacher. So you don't believe that this coincidence 
that the chairman pointed out with the 200 acts of violence and 
the number of deaths and injuries, that seems to indicate that 
we had just taken those statistics from Chinese--from the 
Chinese Government itself, and then just resubmitted it out in 
our name, do you think that is just a coincidence that we 
actually verified those things?
    Mr. Schriver. No. Again, I looked very carefully at that 
statement and it said ``elements of,'' it didn't say ETIM, and 
it said ``reportedly committed.''
    Mr. Rohrabacher. Weasel word is what we call them. Now, 
weasel words. Now, so we used weasel words to make sure that we 
could use information that obviously was spoon-fed us by the 
intelligence arm of the world's worst human rights abuser. 
Beijing, by its very nature, by its bigness alone, not to 
mention the crimes, is the world's worst or biggest human 
rights abuser. And just from what you are saying, it doesn't--I 
mean you, are trying to tell us that those things were 
corroborated, but you are not saying that, are you?
    Mr. Schriver. What I am suggesting is that the designation 
was made based on independent information collected and some 
corroboration of the information provided, as well as by----
    Mr. Rohrabacher. But not in individual cases, just on a 
general concept.
    Mr. Schriver. Well, it was based on the criteria 
established in the Executive Order and the assessment as to 
whether that criteria was met.
    Mr. Rohrabacher. I would suggest that even from what you 
are saying, that it would be proper for us to surmise that our 
Government was just basically being spoon-fed information and 
that we were not doing that.
    Mr. Schriver. If I could respond to that, there were many 
organizations which the Chinese brought forward. And again, I 
took office after this particular designation was made, but I 
used to be the personal recipient of volumes and reams of 
information from the Chinese about alleged terrorist 
organizations that we were not in a position to designate, 
because we were not able to make those assessments.
    So I respectfully would reject a notion that we were spoon-
fed and simply relied solely on that.
    Mr. Rohrabacher. And----
    Mr. Delahunt. Would you--just one moment.
    Mr. Rohrabacher. Sure.
    Mr. Delahunt. What I find interesting, Mr. Secretary, is 
that up to the designation, the Communist Chinese Government 
spoke about multiple terrorist groups. And after the 
designation, everything was ascribed to ETIM. In other words, 
that designation in my opinion was a signal to--not an 
intentional signal, but a signal to Beijing, if you use ETIM, 
that is going to resonate in the State Department and among the 
executive branch. And that, I would suggest, was very 
dangerous.
    I yield back.
    Mr. Rohrabacher. I would agree with the chairman. Are there 
any acts of violence against a civilian population, aimed at 
terrorizing that population, that you can think of, that the 
ETIM was guilty of? That it was verified?
    Mr. Schriver. I couldn't go into the full review of the 
organization and the incidents for a variety of reasons. I 
would not disagree with anything that has been said about 
secrecy and the problematic nature of making these decisions. 
But in fact, I did take an oath to not reveal classified 
information. I am privy to some of this. Much of it I am not 
privy to.
    Mr. Rohrabacher. Do you know any secret information that 
would indicate that the ETIM, that you are privy to, that you 
have seen, that would indicate that the ETIM had committed an 
act of violence against a civilian target? That is what 
terrorism is.
    Mr. Schriver. I understand.
    Mr. Rohrabacher. Fighting for your freedom against, as Mr. 
Fein says, fighting against the British troops or against 
Chinese military and occupiers.
    Mr. Schriver. Let me say, as I said in my testimony, I am 
confident in the decision that was made at the time, based on 
the criteria set forth in the Executive Order. I would 
certainly not have any objection to further--by this committee 
or anybody else--further review of those decisions. These lists 
should be active and fluid tools. If this committee is charged 
with a full examination of these issues, perhaps a classified 
briefing would certainly be appropriate.
    Mr. Rohrabacher. Well, I am just asking you. You don't have 
to break a rule about classification by simply saying whether 
or not you know of something.
    Mr. Schriver. As I said, I am confident in the decision 
that was reached in August, 2002.
    Mr. Rohrabacher. That is not what I asked you. Do you know 
of any specific incident where the ETIM was accused of actually 
committing an act of violence against a civilian target?
    Mr. Schriver. Again, I was not an intelligence official. I 
was not involved in this review. When I state I have 
confidence, I have seen reports saying that the criteria have 
been met, yes.
    Mr. Rohrabacher. That is not what I asked you, whether you 
think the criteria had been met. I asked you if you had known 
about. But we will move on.
    Again, when we make mistakes--and we do make mistakes. We 
have made mistakes in every war that we have been in. But it 
behooves us to admit our mistakes and to correct it. I think we 
should be embarrassed that our leaders are not willing to do 
that in the case of the Uighurs and perhaps in the case of 
several other people in Guantanamo. I say that as a supporter 
of the basic strategy of using that in this time of terrorism, 
when people have targeted American cities and American 
neighborhoods.
    Let me ask about some of this here. Some of the experts 
here on the ETIM and the East Turkistan population, do the 
Uighurs and do these organizations in any way--are they 
advocating an independent country that would be a democratic 
country? One would expect something like Mongolia. Or are we 
talking about a group of people that are advocating an Islamic-
based country in which church and state are one and that we 
might expect to be allied with more radical elements within the 
Islamic world?
    That is open to the panel.
    Mr. Gladney. I think I can refer you to page 24 of my 
testimony, and there I give you a spectrum based on my own 
research and others of the possible groups out there. And there 
is the whole spectrum, sir. There are groups on the Internet.
    Now, the problem with looking at a YouTube video or a 
posting on the Internet, you don't know how many people are 
involved with that. One of the problems with some of these 
organizations, they have been described as one-man 
presidencies, one man organizations.
    Mr. Rohrabacher. They might be fronts for the Chinese.
    Mr. Gladney. They may be front from other groups. So I am 
disturbed that YouTube postings are taken as serious material 
if it is not corroborated.
    Mr. Rohrabacher. So you have cast doubt on the postings 
that we can see.
    Let's go to the lawyer here. Your clients want to establish 
a Muslim state, that the church and state is the same that 
might be inclined to be allied with these other radical Muslim 
elements?
    Ms. Baker Manning. No, sir. Absolutely not. That has never 
for a moment been the goal of any of them. None of them would 
even admire such a goal. We explained to them recently that 
these kinds of charges were being leveled against them in the 
American debate, and they laughed out loud at the absurdity of 
the suggestion.
    Mr. Rohrabacher. All right.
    Yes.
    Ms. Kan. We have a record to go on. Whatever some people 
might or might not do would be speculation, but we do have a 
record of what has actually happened; and that is, in exile, 
there are at least two large Uighur communities in exile. One 
is in Germany, and one is right here in Washington, DC. And so 
they have sought to go to Western democratic countries when 
they are able to. In fact----
    Mr. Rohrabacher. Are there any of these groups that have 
been identified in Iran or in radical Islamic countries?
    Ms. Kan. They speak Uighur. They don't speak Arabic.
    Mr. Rohrabacher. Persian, I think.
    Ms. Kan. Right. Or that other language. Exactly.
    They have gone to live in Munich, in Germany. The German 
Government is well aware of the large Uighur community there. 
We have a rather large Uighur community here. Just last month, 
the World Uighur Congress held its third general assembly right 
here on Capitol Hill at the new Capitol Visitors Center at 
which six Members of Congress spoke to Rebiya Kadeer at the 
World Uighur Congress.
    Mr. Rohrabacher. What was the position there on the 
separation of church and state, which is basically kind of the 
element, the essence of what radical Islam is all about?
    Mr. Fein. Mr. Congressman, the Uighurs are of Turkic 
ethnicity. You will remember Turkey is a government that 
overwhelmingly represents a Muslim population. It is more 
secular than most of Christian Europe. The separation of church 
and state that Ataturk ushered in is stronger than in western 
European allies, members of the EU.
    Mr. Roberts. Can I add a point?
    Mr. Delahunt. Please, Professor Roberts.
    Mr. Roberts. I just wanted to note that there is a long 
history of Uighur nationalist groups. And I think that what we 
see after the fall of the Soviet Union is that none of them 
have really had the opportunity to establish a comprehensive 
program as you are asking about. I think only now do we see 
that starting to happen after Ms. Kadeer was released into the 
U.S. and she has taken a leading role in the World Uighur 
Congress.
    Prior to that, a lot of the Uighur nationalists were 
actually in the Soviet Union, and the Soviet Union was 
supporting ideas of ethnic autonomy in China largely as a ploy 
in the Sino-Soviet split. And then later, in the '90s, most of 
the Central Asian states kind of started to restrict any Uighur 
nationalist groups on their territory, in part at the request 
of the Chinese Government.
    So I guess the short answer is I think that right now is 
the time where we may see a group of Uighurs in a comprehensive 
way put forth a program. But I have not really seen a united 
program to date.
    Mr. Rohrabacher. Thank you.
    Mr. Chairman, I want to thank you very much for holding 
this hearing. I want to thank the witnesses. I am going to be 
going off to another event that I have scheduled myself for. I 
apologize.
    But, again, those of us who have supported the war against 
radical Islam feel very strongly, as you noted, and as you 
should have noted, that what we have tried to do in Guantanamo 
is aimed at protecting the people of the United States. Every 
war that has ever happened, mistakes are made and people--
innocent people are hurt. What makes us a moral people is not 
that we don't make mistakes during times of war. What makes us 
an honorable people is that, when we make a mistake, we admit 
it, because that should be at the heart of our soul and 
character as Americans. We admit it, and we try to make it 
right.
    In this case and perhaps in several other cases in 
Guantanamo, trying to protect our people, trying to prevent 
another 9/11, perhaps something wrong happened, and I am 
ashamed the leadership of my party has not stepped up and done 
the honorable thing.
    We just had a Member of Congress who, I think, had courage 
to stand up. He just left. Mr. Moran. And I really respect him 
for what he has done and having the courage to stand up 
recently on that.
    With that said, I want to thank you for the hearing; and I 
will be looking forward to look into this issue more. Because 
what we have got here, I believe, is the worst type of 
situation, where Communist China, a massive abuser of human 
rights, is manipulating our Government and our own leaders for 
their benefit. And we can't let that stand.
    Thank you very much, Mr. Chairman.
    Mr. Delahunt. Thank you, Congressman Rohrabacher.
    Now I will go to Eni Faleomavaega, and then we will go to 
Mr. Ellison.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I note with interest the fact that this is not an issue 
that was just brought to the subcommittee's attention in a 
matter of a couple of months. This has been going on for almost 
2 years now.
    I do want to say for the record I duly commend you and the 
gentleman from California for pursuing this. Unfortunately, it 
has taken now 2 years, and we are still trying to get more 
answers to the questions that have been raised as you had 
initiated and especially to some of the comments and 
observations made by our expert witnesses now before us.
    I seem to get a common thread with all the testimony that 
has been provided here, the fact that the Uighurs are totally 
innocent of anything that seems to have brought them to this 
stage of classifying them as terrorists. Do I hear a 
disagreement of that sense?
    This is something that our Government, unfortunately, made 
a mistake in passing judgment, in classifying, first, ETIM as a 
terrorist organization. The next thing we know, we heard 22 or 
more--because of some bounty hunters that turned these 22 
Uighurs over to us and now transferred them to Guantanamo, and 
now we got into more complications because of the problems that 
we did.
    I would like to ask the panel, what would be your 
recommendation to resolve this issue once and for all?
    Mr. Fein. Well, my recommendation is Congress enact the 
statute, at least with regard to the Uighurs, and give them 
permanent residency in the United States of America, like we 
should have done all along, rather than begging other countries 
to take it.
    The other thing, there needs to be, in my judgment, a 
complete overhaul of the system, the procedures by which 
organizations are designated as terrorist organizations. There 
is no due process at all. It is the classic example where you 
don't have a right to know the charges against you. That is not 
a system that is going to get anything that is reliable 
whatsoever.
    We need to remember as well there is always the backup of 
the criminal law. If people conspire to do things that are bad, 
you can prosecute them. And conspiracy is forward looking. You 
get them before they have even taken virtually a single step 
toward its execution.
    But at least in a prosecution you have due process. You 
have a chance to defend yourself. The government just lists 
individuals or organizations as terrorist organizations. You 
are associated with them, you give $5, then you immediately 
come under suspicion. No one knows how you get there.
    Mr. Faleomavaega. Mr. Fein, I hate to interrupt your 
comments, well taken, but supposedly we are in a state of war, 
and sometimes in a state of war we are under martial law. And I 
am sure you are well aware of the historical significance of 
that fact during the time of the Civil War where Abraham 
Lincoln, our famous President, did some things that were 
somewhat unconstitutional.
    But I am not going to argue you your point. I just want to 
say sometimes due process doesn't come about.
    Mr. Fein. Let's take the very case right here, Mr. 
Congressman. Because that issue was raised, habeas corpus, and 
the United States Supreme Court held in the Boumediene case 
habeas corpus was unconstitutionally suspended by this 
Congress.
    Mr. Faleomavaega. I also recall the fact that the Supreme 
Court made the decision and President Jackson said, ``You made 
the decision, now you go enforce it.''
    Mr. Fein. But remember, the reason why the Uighurs got here 
today is because of that decision. They got into court because 
of that decision.
    Mr. Faleomavaega. Sir, that is the reason why we are having 
the hearing.
    Mr. Fein. Exactly. That is why you shouldn't be worried 
about constitutional rights.
    Mr. Faleomavaega. My time is running out, and I have got to 
ask more questions. I appreciate your statement there, Mr. 
Fein.
    Ms. Kan, you indicated that the fact that Mr. Armitage made 
the formal statement that the ETIM is considered a terrorist 
group, and then Assistant Secretary James Kelly reaffirmed that 
decision made by the administration. But I noted that you 
mentioned that it was based on independent evidence that 
Assistant Secretary Kelly stuck to the decision made by Mr. 
Armitage or, for that matter, by the Bush administration that 
these people should be classified as terrorists.
    I was curious, what was the independent evidence that that 
decision was based upon? Was it something outside of what the 
Chinese intelligence shared with us, or something that none of 
us know at this point? I think the chairman made that very 
point, critical. Does this require, Mr. Schriver, that we have 
to have a classified briefing in terms of this independent 
evidence that Ms. Kan had referred to earlier?
    Mr. Schriver. Well, I would encourage that. I don't know 
that there is a need for me to repeat what I said earlier, but 
one of the reasons this organization was designated and not the 
many others that the Chinese brought forward to us is that we 
had a process where we could either corroborate information 
provided, independently gather and collect the information, or 
seek a third party.
    Mr. Delahunt. Will the gentleman yield?
    Mr. Faleomavaega. I would gladly yield.
    Mr. Delahunt. You know what happens, Mr. Schriver? Every 
member here has attended classified briefings. We go into these 
classified briefings, and we leave with very little 
information. What we discover is that we are then prohibited 
from discussing classified information that in our opinion 
ought to be out in the public domain. There is a great tool--
and I think Mr. Fein understands this. There is a great tool 
that the Executive has.
    We will have a classified briefing. Now that means that the 
members who attend that briefing--and I don't attend those kind 
of briefings--are never able to discuss it. Yet, among 
ourselves--and this is commonplace, among Republicans and 
Democrats--what was that all about? And it was totally 
unsatisfactory, and it didn't even meet minimal standards in 
terms of, in our opinion, being appropriately classified.
    That is the problem that Mr. Fein is passionately bringing 
to our attention. Because the mistake that we make is to confer 
upon the Executive, whether that be a Democratic or a 
Republican administration, the ability to play this rope-a-dope 
game. And that is what it comes down to.
    We clearly share the concern about threats to our national 
security. We all do. But we also know what is real and what is 
pretend and what is meant to deal with embarrassment.
    The ranking member is correct. It is sometimes easy to say 
you made a mistake. There is no one on this side of the dais 
that doesn't make multiple mistakes daily. But what we seem to 
do and we get here in Washington is classified, it is super 
secret, and the American people are never told what the truth 
is.
    Here is my problem with ETIM. How big is it? Is it two? Is 
it dozens? Is it hundreds? Where did this military training 
take place? Was it an installation the size of Fort Bragg? What 
were the weapons that were involved?
    Reports that I read in the media indicate that there was 
one AK-57. By the way, there is no reference to these 22 
individuals that were detained as a result of a bounty system, 
that they were involved in that training. What is the 
relationship with al-Qaeda, other than some double, triple, 
quadruple kind of connection that I am sure, if you ran it out, 
we would all be part of al-Qaeda.
    Mr. Roberts. Congressman, this is a question--kind of 
American civics question. Does Congress have the right to have 
a closed classified hearing? Would you be able to question the 
intelligence on this? Because my opinion is that there is 
probably a dozen not even specialists in Xinjiang and Uighurs 
in the United States. And we all know each other. To my 
knowledge, nobody was brought in to discuss this issue.
    Mr. Delahunt. Were you brought in, Professor Roberts, to 
discuss this issue about the classification of ETIM?
    Mr. Roberts. I was not. In fact----
    Mr. Delahunt. Do you speak Uighur?
    Mr. Roberts. I do.
    Mr. Delahunt. Secretary Schriver, you don't speak Uighur, 
do you?
    Mr. Schriver. I do not.
    Mr. Delahunt. I don't mean to personalize this. Let me 
pause for a moment.
    Professor Gladney, do you speak Uighur?
    Mr. Gladney. Some; better Turkish.
    Mr. Delahunt. Well, your Uighur is better than mine, I can 
assure you of that.
    Secretary Schriver, last week in the testimony proffered by 
Ms. Kadeer, who, I dare say there is no one on the planet that 
knows the Uighur community, both inside and outside of China, 
like the gentlelady who is with us here today, she had never 
heard of ETIM. If this is a terrorist group, they certainly 
were well versed in being secret.
    This is the problem in terms of the Congress and the 
American people relying upon a secret process that has 
consequences. Because that was the hook. As Susan Baker Manning 
says, that was the hook that kept these 22 Uighurs incarcerated 
for almost 7 years. Yet, I think it was Professor Gladney in 
his testimony indicated that someone from the State Department 
personally told him that it was a mistake. Am I 
mischaracterizing?
    Mr. Gladney. That is correct.
    Mr. Delahunt. Mr. Secretary, was there debate over this 
designation within the Department of State? You know, we are 
all human beings. We are all subject to different views. Was 
there some dissension as to the designation? If there was not, 
why was ETIM never designated as an FTO, a foreign terrorist 
organization? Can you explain that to me?
    Mr. Schriver. First of all, in terms of admitting mistakes, 
myself, others who served in the administration, I hope are big 
enough to step up to that challenge. And I think in my own 
testimony I have acknowledged Guantanamo was a tragic error and 
the circumstances they find themselves under. I would be 
prepared--it might be an awfully boring hearing--but to go 
through all the mistakes I have made, and there are plenty.
    But the issue is whether or not this particular designation 
at that particular time was an appropriate designation based on 
the evidence and based on the criteria of the Executive Order. 
My belief is that it was. But I would----
    Mr. Delahunt. I respect your belief. Was there 
consideration to place ETIM on the foreign terrorist--listed as 
a foreign terrorist organization which, my understanding, is of 
a significant--a higher degree of significance than under the 
Executive Order?
    Mr. Schriver. I would confess this falls a bit out of my 
expertise, but my understanding is it is not only sort of in 
precedence, in a higher precedence, as you suggest, but it is 
also based on different criteria and relies on information 
related to activities outside of the country. We did have some 
of that information, but I think people felt the case wasn't as 
strong to go to that second designation.
    Mr. Delahunt. Okay. I interrupted somebody. I don't know 
who. Let me yield back the gentleman his time, Congressman 
Faleomavaega.
    Mr. Faleomavaega. This is always one of the problems being 
chairman. You can do anything you want. But I do thank the 
chairman for his allowing me to do this.
    I have as part of my jurisdiction in my subcommittee the 
Central Asian countries. I wanted to ask the panel, as a result 
of--I guess this is based on the Soviet-Sino agreement, that we 
ended up having Kazikastan, Kurgestan, Uzbekistan, Tajikistan, 
and Turkmenistan as independent countries as a result of the 
demise of the former Soviet Union.
    Was there ever a discussion historically about having 
Uighuristan as another republic? It seems to me the time when 
this was going on there was a fear of Balkanization of the 
different countries. I suspect that this is probably one of the 
biggest concerns that the Peoples Republic of China was having, 
the fear of breakouts among the different groups. China is 
trying to bring Taiwan into the fold, Hong Kong, Macau, all 
these bases of where China is claiming sovereignty overall.
    But I just wanted to ask the panel, was there ever any 
movement or any consideration seriously of having Uighuristan 
as a possible republic, just as the way these other five 
countries are now part of the Central Asian region? I just 
wanted to ask.
    I was very impressed with your statement, Dr. Gladney, 
concerning the history not only of Uighuristan but the other 
areas there, too, surrounding it.
    Mr. Gladney. Of course, there would not have been a 
discussion of that possibility, because Xinjiang has never been 
a part of the former Soviet Union. In my testimony I do say 
there was certainly some hope among Uighurs on the street.
    Interestingly enough, it wasn't in 1991, 1992, when the 
Central Asian states were established with the demise of the 
foreign Soviet Union. It was really in the '90s, in 1997 with 
the reincorporation of Hong Kong that that hope was enlivened. 
I was frequently traveling to the region at that time; and 
there were a lot of discussions of that
    reintegration of Hong Kong, if it were not to go well, then 
there would be more opportunities for those kinds of imagined 
situations.
    But, clearly, from the China side it was much more fear of 
that possibility. And of course many people, when they focus on 
Xinjiang and Tibetan independence issues, they forget that 
really the jewel in the crown that China sees as a part of all 
this issue of separatism is really Taiwan. So you can't really 
distinguish these issues about China's desire to maintain a 
unified country.
    In my testimony also I go into the historical establishment 
of incorporation of Xinjiang as part of the People's Republic 
of China. And there were--prior to that, in 1949, there were 
two separate states, Eastern Turkistan Republics established in 
the '30s and in the '40s. Those were legally bona fide nation 
states. They were recognized. They were democratic. One was 
quite secular, supported by the Soviets. The other in the south 
was more Islamically inspired. But, nevertheless, the Uighurs 
look to those two independently recognized states as the 
historical precedence for a separate Uighuristan. But those 
were very short-lived and----
    Mr. Faleomavaega. I just have one more question because my 
time is out. Again, Mr. Chairman, I appreciate your indulgence.
    Was there a desire among the Uighur people to have a 
sovereignty within a sovereignty, to the extent that they just 
want to be autonomous but be part of the mother country in that 
respect and to be free but not totally independent? They are 
not seeking total independence from China. All they want is 
more of an autonomous relationship, I suppose similar to what 
the Dalai Lama has been trying for years to seek with China. Is 
this basically what the Uighur people are seeking to establish 
in its relationship between China and the Uighurs?
    I notice, Secretary Schriver, you are shaking your head.
    Mr. Schriver. I am shaking my head, but I think there are 
people that are probably more expert. My impression is maybe 
perhaps to some that is a suboptimal outcome, but it is 
probably the most realistic outcome and one that gives very 
concrete objectives that can be pursued, defining what genuine 
autonomy would mean, as the Tibetans have, and then pursue 
through negotiation with China that kind of outcome. So I think 
that is the current circumstance, and that is the objective. 
And I think U.S. policy should support that.
    Mr. Faleomavaega. I also have China as part of my 
subcommittee with my good friend from Massachusetts.
    But I think to settle the issue once and for all, Mr. Fein, 
you indicated earlier, pass a statute, bring these 22 Uighurs 
into the United States and be done with it. Is this about as 
best as we can resolve the situation and not go back and forth? 
Well, we made a mistake. Is this the best way that we can 
correct the mistake that we have made?
    Mr. Fein. I think the answer is yes; and, of course, there 
is precedent as well. Mr. Rohrabacher mentioned the killings--
remember Pearl Harbor and 5 months after we had concentration 
camps.
    Mr. Faleomavaega. I think Ms. Kan and I very well remember 
Hawaii.
    Mr. Fein. We did make amends in that same circumstance in 
the Civil Liberties Act in 1988. The same thing we can do 
today.
    Mr. Faleomavaega. They say, what we did to the native 
Hawaiians, we took their land; we stole it fair and square.
    Mr. Roberts. I think also another thing that needs to be 
done that was obvious in the exchange between Congressman 
Rohrabacher and Assistant Secretary Schriver is that we need to 
define what we are talking about when we are talking about 
terrorism. I know Assistant Secretary Schriver kept on saying 
that it met the criteria at the time, but maybe the question is 
that criteria should be reviewed and we should really think 
about what we are talking about when we are talking about 
terrorism. If we are really fighting all violent separatist 
movements around the world, that is, obviously, not a winnable 
war.
    Mr. Faleomavaega. Dr. Roberts, I know what you mentioned 
about terrorism, but let's talk about colonialism. Let's talk 
about patriotism. Let's talk about nationalism. I think our 
patriots during the Revolutionary War were considered 
terrorists. I think the Israelis who fought very hard to gain 
independence were classified as terrorists. So it is a matter 
of perspective, I suppose. How do you do that? Ho Chi Minh was 
considered a nationalist patriot because all he wanted to do 
was fight against 100 years of French colonialism in Vietnam. 
How many Americans know about that fact?
    Mr. Fein. But the statutes do define and the Executive 
Orders define the criteria. They can vary. But it just isn't 
Humpty Dumpty; I make it mean whatever I want it to mean on a 
current day. That is what rule of law means. You have to write 
down standards so you can apply them evenhandedly.
    I do agree with the suggestion you had that we should 
review what the standards are and see whether or not the 
distinctions you made we can put in words in the statute so it 
prevents, for example, the immigration authority holding people 
as terrorists in Burma because they are fighting against the 
oppressive regime there and can't get in the United States.
    Mr. Faleomavaega. Mr. Chairman, thank you so much. Let's go 
to Bermuda and Palau and settle this thing once and for all.
    Mr. Delahunt. I concur with that. I look forward to the 
trip to Palau. I thank my friend.
    Mr. Secretary, there was a report that was done by Mr. 
Fine, who is the Inspector General at the Department of 
Justice, that confirmed that the Uighur detainees were 
interviewed, were interrogated, and there are other reports 
that indicate they were intimidated by Communist Chinese 
intelligence agencies while at Guantanamo.
    Is it a common practice to allow intelligence agents from 
foreign countries into Guantanamo or other facilities to 
interrogate detainees that are incarcerated?
    Mr. Schriver. Again, slightly outside my purview, but my 
understanding is the decision was based on a general 
application of access to the detainees from people representing 
the countries of origin. I personally think in the case of the 
Uighurs it was ill-advised.
    Ms. Baker Manning. May I comment on that, Mr. Chairman?
    Mr. Delahunt. Yes, please.
    Ms. Baker Manning. The reports that you have seen that the 
Uighurs were intimidated by Communist Chinese officials in 
Guantanamo, if the report is that they were intimidated, that 
is a dramatic understatement. What actually happened is they 
were abused and threatened, and it was made abundantly clear to 
them--this is a paraphrase of one of them reporting to me--but 
he was told by his Chinese interrogator after being kept up for 
a day and a half and softened up by U.S. soldiers so that they 
would cooperate with the Chinese interrogators, he was told by 
his Chinese interrogator that he was lucky to be in Guantanamo 
because as soon as they got him back to China, he was dead. 
That is what actually happened in these interrogations.
    The important thing to remember for the broader context of 
what we are talking about here today is that Secretary 
Armitage--Assistant Secretary Armitage went to Beijing in late 
August, 2002. ETIM goes on the terrorist list I think a couple 
weeks later. And right after that is when the Chinese 
interrogators show up in Guantanamo.
    I have never heard it suggested to me that this is a 
coincidence. It can't possibly be a coincidence. So it seems 
that there is a direct connection between this cooperation, 
going on the terrorist list, and these abusive, threatening 
interrogations that happen in Guantanamo with the complicity of 
U.S. soldiers. That is a remarkable series of events--and to 
our great shame.
    Mr. Delahunt. Mr. Secretary, can you tell us how the 
decision was made to allow Chinese Communist intelligence 
agents into Guantanamo to interview these detainees?
    Mr. Schriver. I cannot. I would just repeat I think it was 
ill-advised. My suspicion would be that it was part of a 
general policy access to the countries of origin. But I think 
in this case it was very ill-advised if applied in that way.
    Mr. Delahunt. Well, if it was the Department of State and 
they read their own human rights reports, not only was it ill-
advised but I would say that it was morally repugnant where, 
with a human rights report that describes in great detail the 
persecution and the gross violation of human rights perpetrated 
on the Uighurs in China, to allow Communist Chinese agents, 
security agents into Guantanamo, is beyond unacceptable.
    It is my intention at some point in time to determine how 
that decision was made. Because Attorney Baker Manning is 
correct. This isn't going to be satisfied simply by saying it 
was ill-advised, with all due respect. And then fast forward to 
now and we have a former Speaker of the House of 
Representatives suggesting that these individuals be sent back 
to China. I am sure you reject that suggestion. But it is most 
disturbing.
    Do you know if the decision to allow these intelligence or 
these security agents into Guantanamo was made by State, by 
Justice, or by Defense?
    Mr. Schriver. I am not sure I can answer with precision, 
but my memory is it was not the State Department. It seems to 
me I would have been aware of that decision.
    Again, I apologize if my language suggested sort of an 
offhanded view of this. No, it was absolutely inappropriate and 
unacceptable to have them treated in that manner at Guantanamo, 
as well as a lot of other activities in that detention 
facility, in my view.
    Mr. Delahunt. If you know--I am always interested in how 
these decisions are implemented. If you know, did we provide 
the transportation for the Communist security agents to come to 
Guantanamo?
    Mr. Schriver. I don't know.
    Mr. Delahunt. I mean, I just have this rather disgusting 
vision of putting up Communist Chinese security agents at some 
hotel somewhere on the base after providing them with 
transportation on some Gulfstream aircraft. And they are told 
that they are lucky they are in Guantanamo because if they 
returned to their homeland, they would be tortured and most 
likely summarily executed. That is disturbing. And when I think 
of the American taxpayers supporting this activity, I am sure--
maybe you can tell me I am wrong--but I am sure that it wasn't 
a Communist Chinese aircraft, military aircraft that landed at 
Guantanamo. If you know.
    Mr. Schriver. I don't know the specific circumstances and 
the issues associated with transportation. But I would just 
underscore I think it is important that Secretary Powell at an 
early juncture said under no circumstances would they be 
returned to China.
    President Bush, when Hu Jintao, as a part of maybe three or 
four issues he chose to raise with President Bush during a 
summit meeting, said we want them returned to China, President 
Bush refused. So there is certainly recognition, based on 
everything we know about their treatment in Xinjiang, that they 
would not be treated fairly or humanely and they faced these 
risks. Certainly that was appreciated and put into action 
through policy by members of the Bush administration.
    Their circumstances at Guantanamo I think are tragic, as I 
said in my testimony. It bears close scrutiny from this 
committee and others.
    Mr. Delahunt. Anyone is free to respond. I am directing 
some of these questions to the Secretary because I have made 
these notes as you have each testified. But how do you 
account--here we have the Chinese Government saying that there 
were various groups involved in violent acts or demonstrations, 
whatever they were. And then, subsequently, we come out with 
the same statistics, practically the same language, and 
attribute it all to one group.
    Those 200--and the numbers, 200, 120, and 40, was that an 
error on our part or were----
    Mr. Schriver. I think the language that you put up said 
elements of ETIM. It didn't attribute all the acts. I think it 
is important to be very precise at the Department of State and 
other executive<greek-l>s deg. agencies when you are reporting 
on these activities, and perhaps more precision was required 
there.
    Ms. Baker Manning. If I may, Mr. Chairman. The type of 
caveats that we see in some of the language here, what 
Representative Rohrabacher calls ``weasel words,'' I think 
quite accurately so, in the Parhat case when the DC Circuit 
Court of Appeals, the three-judge panel, two Republican 
appointees, a Democratic appointee, they come up with a 
unanimous opinion that is all about how shoddy the evidence is 
in the case, that the government's best case against these 
guys--and they are all identically situated, even though they 
are focusing on Parhat in that particular case. They are all 
the same.
    They have a lengthy opinion that is very, very specific and 
very detailed and, among other things, addresses precisely this 
issue of things are said to be true, ETIM reportedly did this, 
there is information that such and such has happened; and it is 
precisely those kinds of weasel words, in the gentleman's 
phrase, that, among other things, causes the DC Circuit to 
reject this. This is not even worth considering, and we are 
going to reject it. It cannot possibly justify any official act 
like imprisoning these men. Because there is just nothing 
there.
    Mr. Fein. If I can add, one of the questions raised was, 
does Congress have the authority to demand classified briefings 
in ways that enable you to get access to genuine information 
that you can discuss, not just conduct soliloquies with 
yourself?
    I think the constitutional law is very clear. The Gravel 
case in 1972 establish that then Senator Gravel could 
declassify 47 volumes of the Pentagon papers that allegedly 
were going to cause all sorts of calamities that never did. 
Under the speech or debate clause in the congressional 
oversight power, the court held that act was shielded from any 
retaliation, any regulation by the executive branch or the 
judicial branch; and the effort to try to indict him was 
squashed.
    My view is the law is clear. If Congress wishes, you can 
demand, even through a provision of the appropriations power, 
no information shall be collected and classified by the United 
States of America with the use of U.S. funds that can be 
withheld from committees of Congress exercising oversight 
functions. And I believe that would be constitutional. It would 
enable you to go and say, you can't tell me to keep quiet. This 
is what the law is. You can't spend money if you are going to 
conceal that from us. You have to have oversight power.
    I think the Church Committee hearing showed what happens 
when it is just a game out there and you don't know. The Church 
Committee got into the real details and had some real reforms 
that were enacted afterwards. But, without that, we may solve 
the Uighur issue. There will be another case in 5 or 10 years. 
It will be the same reason. We will be back here holding a 
hearing.
    Mr. Delahunt. You are arguing for a truly select committee 
in dealing with this whole issue of transparency, secrecy, and 
classification within our own Government to maintain the 
viability and the health of our democracy. That is why I 
think--and I said this in my opening statement--not only is 
this about 22 individuals and justice to them, but it is also 
about remedying the serious issues that I think need to be 
addressed because of what we are learning as a result of 
Guantanamo, not just these 22 detainees.
    I intend to have a hearing on the CSRTs, the Combatant 
Status Review Tribunals. Lawyers that were there, that 
participated, describe it as a sham. I don't know how we 
provoke--again, it is not those kind of issues that people are 
going to follow with assiduously. They are just not going to do 
it. But they are so fundamental.
    Because you are right, Mr. Fein. Today, it is the Uighurs. 
A year from now, it is Irish Americans. And that would make me 
very nervous. But it is about our democracy and really those 
principles.
    And with all due respect, and I appreciate your sincerity 
and I know you are well-intentioned, Mr. Secretary, but 
bureaucratic speak just ain't gonna make it. You are going to 
get people like my friend from California who is going to say 
it like it is: These are weasel words. And I am not accusing 
you of that. But when we read what we get from the executive 
branch, we know what caveats have to be put in there. That is 
not what, I dare say, American democracy is about.
    Do we know what happened, by the way, to the families of 
these detainees that were incarcerated in Guantanamo? Do we 
have any information, Mr. Secretary?
    Mr. Schriver. I don't. But I know Ms. Kadeer, after her 
release, her sons faced persecution and imprisonment. So I 
suspect the Chinese are certainly not above that kind of heavy 
hand with others.
    Mr. Delahunt. Because once--I understand from a
    newspaper report that the four in Bermuda are using 
pseudonyms in an effort to protect their families back in 
northwest China.
    Ms. Baker Manning. That is right.
    Mr. Delahunt. I mean, let's put this on a very, very human 
level here.
    Well, let me throw some questions to Mr. Roberts, since he 
seems nice and relaxed there. Can you tell us anything about 
this purported link between al-Qaeda and ETIM?
    By the way--and I will pose this to the panel as well as 
you, Mrs. Kadeer--all of the experts have hardly heard of ETIM. 
Yet, our Government, according to the Secretary, has 
independent information about ETIM. Has anyone heard about it? 
If you have heard about it, how big is it? Is it cohesive or is 
it just a group that got together and came up with a name?
    Professor Roberts.
    Mr. Roberts. First of all, I think that we don't know very 
much at all about ETIM.
    And it is interesting. I have been a part of some other 
panels the last couple of years, particularly right around the 
Olympics where I encountered some terrorist experts<greek-l>, 
quote, unquote, deg. ``who do contract work for the U.S. 
Government.'' And they would go through charts with the 
organizational structure of the group and provide all this 
definitive information; and then, as soon as they were 
questioned by somebody who actually was a specialist in the 
region and in the Uighur people, they actually stepped down, 
which, to me, was very suspicious. My assumption----
    Mr. Delahunt. Are you suggesting, Professor, that there is 
a cottage industry of terrorist experts out there that come and 
appear on cable news shows and testify when necessary?
    Mr. Roberts. Not only that, I think also--I think some of 
them are doing contractual work for the Defense Department and 
other agencies in the U.S. Government. And my impression of the 
people I encountered was that they didn't really have much more 
substantive information than was available on the Internet. 
And, as Dr. Gladney said, we can't always trust everything that 
is on the Internet.
    As I said in my testimony, I think that it is highly likely 
that ETIM was a group of a handful of people in Afghanistan in 
the late '90s. But I also have encountered lots of information 
from the late '90s when the Chinese Government was engaging the 
Taliban, particularly on the issue of Uighur separatists.
    I think that one of the questions that arises when you look 
at the Uighur situation, why wasn't there a separatist movement 
based in Afghanistan? I think in all likelihood the Taliban 
strongly discouraged it, if not tried to prevent anything like 
that happening. I think that ETIM, after this purported 
leader's death, may not have existed at all.
    What is interesting is now these videos that were on 
YouTube I think are something that raise some interesting 
questions. I said in my written testimony I think that those 
videos could be either Chinese Government or they could be 
perhaps, as Dr. Gladney said, one-person shop, two-persons 
shops, somewhere, anywhere in Germany and Istanbul and the 
United States, trying to exaggerate the power of a potential 
Uighur terrorist threat, because they obviously have not had 
much success with political attempts to get attention.
    Or, finally, they could be attempts by transnational 
terrorist groups to recruit Uighurs, because they see that the 
Uighur people have kind of been abandoned by the West.
    Mr. Delahunt. Thank you.
    Ms. Kan, do you wish to comment?
    Ms. Kan. First of all, this is an important question. 
Because there have been a lot of allegations and insinuations 
about ETIM in any connection or vague, ambiguous terms of 
association or affiliation with al-Qaeda. We do not base our 
assessments in the United States on what China says at face 
value. No reputable analyst in the U.S. Government would do 
that.
    So, looking at what the United States officials have said 
that can be more specific than these ambiguous terms of 
association or affiliation, since 2002--it has been almost 9 
years--we have only been able--I can only find two, which is, 
one, that supposedly the camps in Afghanistan received money 
from al-Qaeda funding; and, secondly, the newest assertion that 
the leader of ETIM was included in al-Qaeda's Shura Council. 
Beyond that, there is really nothing else about if there is an 
ETIM, if there is any kind of connection or relationship, that 
it is part of the network that has committed any attacks 
against U.S. interests.
    Mr. Delahunt. Professor Roberts.
    Mr. Roberts. I just want to add one thing. I do think it is 
very important to note that there have not been any instances 
of suicide bombings or car bombings, nowhere where we could say 
we have explosive devices that would point to a Uighur group 
being associated with a transnational terrorist network. To me, 
that is the most striking evidence against this argument.
    I think that it is fair to say almost any specialist in the 
Uighurs is open to seeing evidence that in fact there are large 
groups of Uighurs involved with al-Qaeda. But I think that the 
evidence is against it. There may be one or two people 
associated with al-Qaeda, but it is also interesting that we 
have not seen a lot of information about Uighurs in Pakistan's 
Northwest Province right now. We hear about Uzbeks, but we 
don't hear about Uighurs. So I think that is another point that 
questions whether we are talking about one or two people who 
may be associated with al-Qaeda or whether we are talking about 
any significant movement.
    Ms. Baker Manning. If I may offer one more thing on this 
point.
    The sensible sort of funding relationship and whether an 
ETIM member has contact with al-Qaeda, one of the specific 
issues considered by the DC Circuit in the Parhat case was 
whether there was any evidence that ETIM is associated with 
either al-Qaeda or the Taliban. And the court, although it was 
based on classified evidence that, although I am privy to, I 
cannot for obvious reasons comment on, once we reviewed the 
evidence, including the evidence on this point, 3 days after we 
received that evidence for the first time, we moved for 
judgment, and we got judgment.
    Mr. Delahunt. 3 days.
    Ms. Baker Manning. The court engaged in a review of 
precisely this issue, was there any evidence in the 
government's best case of a connection between ETIM and al-
Qaeda, and the court ruled for us on precisely that point.
    Mr. Delahunt. You know what concerns me is that we don't 
even know what ETIM really is. And we have this allegation out 
there about links to al-Qaeda, and it gets amplified every time 
there is a discussion, and it becomes an accepted fact. And 
that is what is really disturbing. If there is evidence, let's 
listen to it. But, again, it is that veil of secrecy.
    I mean, up until recently, the Vice President--the former 
Vice President continued to maintain there was some 
relationship between al-Qaeda and Saddam Hussein, when just a 
review of the history of the region would indicate that Osama 
bin Laden considered Saddam Hussein an apostate, a defiler of 
Islam.
    I mean, we have to be more careful as a people and as 
policymakers in terms of what we say, and we are prone 
oftentimes to throw away a comment that has very little 
validity.
    I mean, maybe we will have to have a classified briefing. 
But I have attended classified briefings, and I can remember 
weapons of mass destruction and mushroom clouds and operational 
relationships. I can remember being told that al-Qaeda camps 
existed in Iraq. It was false.
    Do we know where this village or this camp existed in 
Afghanistan? No. We are making it up. That is what the rest of 
the world is thinking. And now we find ourselves in this very 
difficult, embarrassing situation.
    And Dr. Gladney, what I found remarkable, and you pointed 
it out in your testimony, is that our own military, the U.S. 
military, had never heard of ETIM according to a report at the 
end of 2001. And yet, again with all due respect, we are 
designating ETIM less than a year later through an Executive 
Order as a terrorist organization.
    Mr. Secretary, I think Ms. Baker Manning said it well. If 
you were sitting here--you are sitting out there, and you are 
putting August 22nd together and then, you know, different 
reports, and all of a sudden ETIM emerges as a terrorist 
organization--what inferences would you be drawing? Dr. 
Gladney, if you will, can you amplify what I alluded to in 
terms of our own military not having heard of ETIM?
    Mr. Gladney. I wish I could. Just based on a SINCPAC report 
that was published which they extensively examined, a special 
report, Uighur Muslim Separatists, Virtual Information Center, 
dated 28 September, 2001, ETIM was not even mentioned.
    Mr. Delahunt. What conclusion can we reach, Mr. Secretary? 
I mean, you see the predicament that serious people have about 
the designation or the existence of ETIM. Even if we grant you 
that it existed, you know, because a leader acknowledges this--
and who is this guy Hak?
    And, by the way, has anybody heard from ETIM in the last 4, 
5, 6, 7 years? Where are they? Where are they? Can anybody 
answer? Dr. Roberts; Dr. Gladney; Mr. Fein; you, Mr. Secretary; 
Ms. Kan; can someone tell me where they are? Are they taking 
any responsibility for any acts, any violent acts? The only 
ones that seem to be giving them any credibility is the Chinese 
Communist Government in Beijing. Will anyone comment?
    Because here in September post-9/11, in September 2001 the 
United States military does an in-depth study of the region 
with a focus on Uighur Muslim separatists; and there is no 
mention of ETIM. If you were me, Mr. Secretary, what would you 
think?
    Mr. Schriver. Well, again----
    Mr. Delahunt. Put yourself in my position.
    Mr. Schriver. I understand the tone and your purpose in 
having this hearing and trying to draw people out on these 
issues. I think it is an important issue. But again if you look 
at sort of the comprehensive approach of the administration it 
is just analytically unsound that this was simply to try to 
engage the Chinese on counterterrorism cooperation because 
there are so much other efforts that would run contrary to 
that. In fact, this is a data point that is inconsistent with 
our overall approach to Xinjiang and to the Uighur community.
    Mr. Delahunt. With all due respect, I don't agree with you. 
I think if I am negotiating and the Chinese are really 
important, they are a major--they are a super power, we know 
that. If I can just feed the beast a little bit, give them a 
dollop, if you will, of, okay, we know you have got a problem. 
We know that you are concerned not so much about Islamic 
jihadis but a growing sense of a possible independence movement 
or demands for more autonomy or demands for human rights. Okay, 
give us what you have. And you gave us some stuff. You gave us 
some statistics. And, you know, all right, rather than having a 
whole bunch of--because the testimony from these experts are 
there were groups out there that were of more consequence than 
the ETIM. Is that true, Mr. Gladney?
    Mr. Gladney. That was our feeling at the time.
    Mr. Delahunt. Professor Roberts, is that your 
understanding, that if you take a look at the Uighur dissidents 
that there were some groups that existed that were of more 
consequence than ETIM? Or am I misstating it?
    Mr. Roberts. No, absolutely. I wouldn't say that--I have 
never really encountered a group that has any militant 
capabilities, though. But there is no doubt that in the Uighur 
community--I was in Kazakhstan for much of the 1990s, spent 
most of that time in Uighur communities, knew all of the 
political leaders, and I never once encountered the Eastern 
Turkistan Uighur movement. And I lived in Uighur neighborhoods 
where I encountered all kinds of visitors from organizations in 
Turkey, from organizations in Germany, from organizations in 
all other countries, but I never heard of the Eastern Turkistan 
Islamic movement until February 2002 when it was designated a 
terrorist organization.
    Mr. Delahunt. Mr. Fein.
    Mr. Fein. Mr. Chairman, let me make a couple of 
observations.
    One, what this hearing shows is sunshine is the best 
disinfectant. We still have all this shrouded in secrecy. And 
if we think of the history of all of the leaks of classified 
information, none of them have been shown to be greatly 
detrimental to the United States of America, including the 
Pentagon Papers.
    There is a risk anytime to have a totally open society. But 
the consequences of--you know, this discussion today, which 
just illustrates it is not limited to the Uighurs, there have 
been injustices to many other groups as well, that is why they 
have habeas corpus and are being released. It shows that all 
the claims that if you do this in the public, you let it out, 
all these calamities will happen. History just doesn't bear 
that out.
    That was said before the Church Committee hearings as well. 
You can't have any of these hearings. We will never have anyone 
who will ever do a covert operation again. It didn't happen 
that way.
    And to the extent that there is some kind of inhibition, so 
what? The benefits to democracy to getting it right are so much 
better to have members like you know what is going on.
    The same questions that you are asking Mr. Schriver has 
been asked to those people in Congress who are actually the 
ones who are making those decisions, and you had it right to 
get the answers to them, and if you did they wouldn't have been 
listed on the organizations of terrorist groups.
    Mr. Delahunt. Let me yield to the gentlelady from Texas, 
Sheila Jackson Lee, for as much time as she may consume.
    Ms. Jackson Lee. Mr. Chairman, first of all, I want to 
thank you for your kindness to yielding to me.
    I am a member of the full committee, and the chairman has 
been gracious with his time to allow me to be involved in what 
I think is an enormously crucial issue. And if you ever want to 
be dressed down or undressed down, let Bruce Fein get in the 
mix of it. And it is appropriate that you have done so, and I 
do appreciate it.
    I am going to be somewhat redundant, because I like making 
the record very, very clear. Because we have seen the 
denunciation of Bermuda. We have seen a representation on the 
public stage of all kinds of things. And it is always the last 
word that someone hears is what they go off with. And so I 
imagine that the public has already been, I will use the term 
tainted, meaning the American public. They have got their 
attitude about the Uighurs, and they believe that we have 
released major terrorists who are floating in the sea in 
Bermuda and that we are reckless and uncaring.
    So let me try to, first of all, say, coming from a 
Caribbean American heritage, I want to thank the people of 
Bermuda for responding to what was a necessity. And, frankly, I 
want everyone to know that Bermuda would like to have snow 
slopes and terrible weather, but, unfortunately, they are in an 
area that doesn't allow them to have that. So when you do see 
them on video you are going necessarily see them in a beautiful 
backdrop. I thank again the people of Bermuda for what I think 
is helping to establish freedom.
    The other thing that I would like to mention as I pose this 
question is my sense of outrage of the continued peppering of 
sweetness on Iran, even in light of the atrocious public scenes 
that we have seen and the clarity of understanding that 
elections that seem to come out one way were--the statistics 
show that 70 percent of the people might have voted the other 
way. And, again, I don't pretend to select Iranian leaders, but 
I will say that that certainly brings a question to me.
    I will add the backdrop to the sugaring and pampering that 
we have done of our good friends in China. And let me make it 
very clear, I am a friend of Mainland China. We have a 
wonderful consulate. They have been always so very gracious. 
But it always amazes me how we are able to use a lot of sugar 
when we talk to people who have some extreme failings that 
don't allow us to speak openly and forthrightly.
    Not only are we dealing with the Uighurs, we are dealing 
with the Tibetans. I have been in the Tibetan mountains to the 
extent that I have even been thrown off a yak, not while I was 
drinking yak milk, but literally that is one of my famous acts 
here in the United States Congress, and for the panel that was 
called cultural exchange. But, obviously, he was not interested 
in too much dialogue.
    So I have been in the temples. I have seen and discussed 
with those individuals about their crisis. I have met with the 
representative of the Dalai Lama, as well as the Dalai Lama, 
but particularly with his representative and spoke extensively 
about these issues.
    So let me try to ask a question to Susan Baker Manning. How 
do you know the Uighurs and those gentlemen that are now in 
Bermuda were not associated with al-Qaeda?
    Ms. Baker Manning. I know that because it is undisputed. 
They have never been accused of being associated in any way, 
shape, or form with either al-Qaeda or the Taliban. The 
government has conceded this repeatedly. It is in a number of 
military documents. It is undisputed. And the DC Circuit has 
noted that it is undisputed. They have no association 
whatsoever with al-Qaeda, the Taliban. They never took up arms 
against the U.S., any members of the coalition. They have never 
been accused of taking up arms against anyone.
    Ms. Jackson Lee. So if we were to seek a written 
affirmation or an affirmation we could go to Federal judiciary 
court papers.
    Ms. Baker Manning. Yes, ma'am.
    Ms. Jackson Lee. Would we have access to these military 
documents that you suggested? Have you had access to them?
    Ms. Baker Manning. There is a classified and unclassified 
portion of the record to which I have access. I could certainly 
provide the unclassified portions of that to the committee.
    We have had some discussion about access to classified 
information. I have encouraged the executive branch to share 
with this committee its correspondence with Attorney General 
Holder. I have encouraged them to share the relevant classified 
information with the Uighurs, because it is critical that 
Congress understand who we are really talking about here. There 
is a great deal of misinformation.
    Ms. Jackson Lee. On the unclassified--and I am grateful for 
the chairman's yielding. I just have a pointed question.
    On the unclassified, will I--in sort of supporting the 
chairman if he has asked for it, I would like to ask for it. On 
the unclassified, would we find written language that says 
that?
    Ms. Baker Manning. What you will find is you will find that 
in the Parhat v. Gates opinion issued by the DC Circuit--
actually, it is attached to my written testimony today. I can 
point you to the specific passage in there.
    The court notes, after review of both the classified and 
the unclassified evidence in that case--and all the Uighurs are 
the same. Evidence is the same. The court notes, after review 
of both the classified and the unclassified evidence, that 
there is no allegation that Parhat was in any way a part of 
either the Taliban or al-Qaeda; and the court also notes that 
there is no evidence that he was a member of ETIM.
    Ms. Jackson Lee. And the reason why I just continue to 
focus on this--and I thank you for that--is that the spoken 
word sometimes is loose and light. But we have court 
affirmation having--the court having reviewed the classified 
documents.
    And the other aspect of it is we are on Foreign Affairs, 
some of us are on Armed Services, some of us are on Homeland 
Security, all part of the synergism of protecting America; and 
the first front-liners of blame, rightly so, is the government 
for saying I told you so. These are in fact terrorists.
    But we have investigated documents, documents that were the 
results of an investigation that says that they were not 
associated. Let me then ask you, why were they in the Afghan 
camps, as have been alleged?
    Ms. Baker Manning. Well, as we have seen from discussions 
that the four men released to Bermuda have had with the press 
over the last few days, the first time they have ever been able 
to tell the story themselves, the same stories they have been 
telling me, these men end up in Afghanistan because Afghanistan 
is at the time a place that has no reciprocity with China. 
Every single one of them leaves China because of the oppression 
of the Uighur people.
    Al Abu Hakeem, the gentleman in this picture right there, 
he leaves China in part because that little girl sitting on his 
lap is his niece. His sister was about to be forced to abort 
that child under China's one child policy. His sister escapes. 
He escapes about the same time.
    They are fleeing the remarkable persecution of their people 
within China. Every single one of the 22 Uighur men who ended 
up in Guantanamo was leaving to escape that kind of oppression. 
Every single one of them is philosophically opposed to the 
Communist Chinese regime and to its remarkable and well-
documented oppression of human rights and of their people 
specifically. But not one of them has ever sought to take up 
arms against China or anyone else.
    Ms. Jackson Lee. Do we have a court order that--the 
release, I am sorry, of these individuals, are they able to see 
their families? Are families coming to Bermuda? Or how is that 
working.
    Ms. Baker Manning. The four gentlemen who are now in 
Bermuda are free. They are not able to travel because their 
Chinese passports were long ago lost. And the Bermudans have 
indicated that they are willing to move them toward 
citizenship. That is a somewhat time-consuming process. It 
probably won't happen within the year. But upon their 
naturalization as citizens of Bermuda and, therefore, the 
commonwealth, they would be able to travel. And I understand 
there will be some restrictions about whether they will be able 
to travel to the United States. But they would be able to 
travel abroad. They will be able to see their families.
    Ms. Jackson Lee. Will their families be able to come to 
Bermuda?
    Ms. Baker Manning. Yes, ma'am. The difficulty is that most 
of their family members are still in China, and there are 
enormous concerns with treatments of their families by the 
Chinese Government. There are just enormous concerns about 
that. So the difficulty is not whether the Bermudans would 
allow the family members to come visit them. The Bermudans have 
made it quite clear to me that they are more than welcome. The 
difficulty is getting out of China.
    Ms. Jackson Lee. Let me thank you very much.
    Mr. Delahunt. Would the gentlelady yield for a moment? I 
want to inform her that it is the intention of the committee to 
go to Bermuda.
    Ms. Jackson Lee. That was my next point. I would like to 
join you. And I think that is an excellent suggestion, Mr. 
Chairman.
    Mr. Delahunt. And I have discussed it with the ranking 
member. We would hope--and, clearly, there are logistical 
issues, and this is a matter that would have to be discussed 
with our Speaker and Chairman Berman. But it would be my hope 
that we could conduct a hearing in Bermuda and have these four 
individuals testify.
    Because, as I said earlier I think it is very important 
that we--and not we necessarily but the American people hear 
from them directly without the filter of pundits and talking 
heads and those that may or may not have a particular bias. And 
I think it would be very, very instructive and very, very 
informative and hopefully accelerate the process of closing 
down Guantanamo as promised by President Obama and sought, 
actually, by President Bush, Defense Secretary Gates, Secretary 
Powell, and others.
    Because what has happened--and I am sure you have noted it, 
Congresswoman--is that there have been many statements such as 
send them back to China by people who are----
    Ms. Jackson Lee. Misinformed.
    Mr. Delahunt. Misinformed but who are--people who are 
perceived to be leaders in this country. And they have created 
such a hostile environment that the actions of our Government 
are not necessarily welcoming to those who were hoping to 
resettle here in the United States. Instead, we go around the 
world to countries who I never really, in all honesty, knew 
existed, such as Palau, as well as Bermuda and Italy and 
others, hat in hand asking that they accept these individuals 
whom it is indisputable are no threat to the United States and 
hopefully can contribute to whatever society they end up in.
    It is my current intention to take a trip probably this 
weekend and speak to the Bermudan authorities and sit down with 
people on the ground from the executive branch and discuss the 
logistics of our going there and having these individuals come 
before us so that we can put to rest whatever the facts are, 
their views. And if anybody wants to refute them, now is the 
time for them to stand up after they testify.
    So that is the intention of the committee, and that is my 
own short-term plan. But I would anticipate some time after the 
July district work period to go to Bermuda and to have a 
briefing, have a hearing, whatever it is appropriately called.
    With that, I yield back to the gentlelady.
    Ms. Jackson Lee. And, Mr. Chairman, I thank you for your 
graciousness.
    I think that is highly appropriate. I think it should be 
known that the chairman is also on the Judiciary Committee, and 
this is perfectly in sync with those issues.
    I will have just two brief questions, and then I will 
conclude my remarks. And that is to ask Mr. Fein, how do we fix 
this going forward? And then I have a question for a professor 
who is traveling.
    But how do we fix this going forward? You enunciated that--
I had left because, in fact, I am going back to a Homeland 
Security Committee hearing, a committee that I chair, dealing 
with securing the critical infrastructure, dealing with issues 
of chemical security. And, you know, over there we are trying 
to be the face of securing America.
    But you mentioned something about our values, civil 
liberties. I almost think--if I can refresh people's memory 
about the Japanese camps in World War II, and I would ask them 
would we still want to have those camps today even if they 
existed and there was no one in them, or we say, well, we are 
holding them because we may have to do it again.
    Don't people understand that is what Guantanamo Bay 
equalizes? Because it was no less serious when the Japanese 
bombed Pearl Harbor. It was like the world had come to an end. 
Well, it was like the world had come to an end on 9/11.
    But we got ourselves back together. We realized that that 
was a heinous thing to do. And so no one voted to say, Well, 
why don't we keep these in here? Because we may hear about so 
and so, maybe might have been with the Japanese on that heinous 
act. But we closed them. And I guess our shame is to never do 
that again.
    Why is it that we are in this complex situation with 
Guantanamo Bay and we seem to fail in our remembrance of 
history?
    Mr. Fein. Well, there is a whole host of reasons. One of 
those that is most unpleasant to mention is, at present, 
Congresswoman, the names of the victims are difficult to 
pronounce--Brumidi and Hamdan or whatever. It doesn't sound 
like Smith and Joe and whatever that we heard about during 
Watergate. So people think it is not going to happen to me.
    A second reason is because I think the government and the 
executive branch tried to inflate the fear 5 million fold, 
calling the challenge the equivalent of fighting Stalin, 
Hitler, Mussolini, Hirohito, Lenin combined.
    It is clearly a danger out there. That is why we have 
criminal justice systems. That is why we have covert actions. 
And, therefore, it became this idea--remember the worst of the 
worst at Guantanamo Bay? And we believed that because we find 
this the equivalent of refighting World War II, and there are 
all these allusions to Munich and things of that sort.
    So people get frightened, and they trusted their government 
and said, Okay, I guess that is what we have to do. And it took 
finally the Supreme Court in Boumediene that said, you know, 
the rights do apply there; habeas corpus applies here. And that 
is why we have the hearings on the Uighur.
    And Congressman Dana Rohrabacher didn't quite understand 
that. He said, ``Well, why, Mr. Fein, are you wanting these 
people to have rights?'' Well, he wouldn't be sitting there and 
questioning the other panelists if we didn't have that Supreme 
Court decision.
    Habeas corpus does apply. And it is something that we need 
to reestablish, in my judgment, an entire different culture 
that recognizes, yeah, being an open society creates some risk. 
But that is who we are as a people. And it prevents a lot more 
injustice than risk that it creates.
    How do you go forward in addressing these issues? I think 
when we think about the listing of organizations as terrorists, 
some kind of stigma, building upon what we learned from our 
own--we had a list of subversive organizations that we had 
around for about four decades as well. I was in the Office of 
Legal Counsel. We abolished the damn thing finally under 
President Nixon.
    We need to have a set of hearings. What are the criteria 
and the due process that ought to go forward if we are going to 
list anybody at all without an actual trial? How much do we get 
from these listing organizations other than being able to make 
people frightened? There has never been any systematic study of 
that.
    How much judicial review can we have? Because, at present, 
you are listed. That is it. You don't know what the charges are 
against you. You don't even know how to refute it.
    The standing issue is, well, you are an organization 
abroad. You don't have standing in the United States to bring a 
lawsuit.
    How are you going to hire a lawyer?
    A whole examination of how we go about the process of 
listing and how many different lists we have. Executive order 
lists under the Economic Emergency Powers Act. It should be--
you might call it mini Church Committee hearings on all of 
these different ways you get listed. Individuals, 
organizations, no due process at all. How accurate are they? Is 
there any examination after the fact? Should these people be on 
the list at all or not?
    And that is what I think is critical that could come out of 
this hearing. Because the Uighurs are just a microcosm of this 
much, much larger issue of secrecy and arbitrariness and just 
listing people.
    It reminds me a little bit of the Pope's Index of Forbidden 
Books. Oh, you are just thrown off the list. Okay, now no one 
can read it anymore.
    You need process out there. Perhaps the most important idea 
in the history of civilization has been two words, due process. 
Always come back to that. Due process, the most important idea 
that we have ever contributed to civilization.
    Ms. Jackson Lee. Well, you have given us a road map.
    We have lost a dear professor. It looks like we have talked 
him into oblivion. But we appreciate what he was able to put on 
the record; and I will peruse the record, Mr. Chairman.
    But what I want to just point out--and I want to thank the 
other witnesses. I will not pose questions to you. But what I 
want to say to Mr. Fein, that is an appropriate, if you will, 
road map for us. To bring us back to the questioning of these 
practices that we utilize, in essence, to secure ourselves and 
really probe into the criteria.
    For example, Mr. Chairman, I hope we can look into what has 
been called the Iranian Resistance Movement. They are located 
in Paris, France. I am sure you have received many invitations. 
We have been castigated, some of us, for trying to listen to 
them. I just want to find out what they are. They indicated 
their resistance. They have been labeled as terrorists. We have 
had some comings and goings.
    But there are a number of groups like this that I think are 
crucial. The whole issue of due process is crucial. And we have 
had moments in our culture. We have had moments with 
McCarthyism.
    I was on the COINTELPRO subcommittee dealing with the 
investigation of the King and Kennedy assassinations, the one 
that they organized in late 1978. And let me just say that I 
was there when I was about 2 years old. But I was a staffer, 
and we had what we called COINTELPRO, which is the surveillance 
of Dr. Martin Luther King.
    And we thought that was securing America. And we had all 
kinds of allusions or suggestions that he was a Communist and 
taking over America, and tragically we lost him in a tragic 
assassination that was successful. We don't know whether the 
creation of that aura contributed to the misthought of 
individuals, just as the tragedy that happened in the Holocaust 
Museum.
    So we have got to find the terrorists, yes. We have got to 
know whether they are domestic or foreign, yes. But we have got 
to find a way to frame our fight in the work or in the mind-set 
of due process.
    I conclude, Mr. Chairman, by saying the beginning of the 
Constitution says that we, the people, have formed to create a 
more perfect union. We have never said it could be superbly 100 
percent, but we said more perfect. And I think that goes to the 
Founding Fathers leaving, in this instance, Great Britain, and 
found that it was not perfect.
    And so I am hoping that we can work for a more perfect 
union and look at the hearings on these terrorist lists and 
particularly follow up on the Uighurs. And I think this is 
instructive, and I think it is instructive for the State 
Department.
    I appreciate, Mr. Secretary, your representation of my 
fellow Texan who had an interest in this, but I also think it 
is extremely important that we look at Guantanamo Bay and ask 
ourselves a question: Would we want the Japanese camps here 
today as a symbol of America? Then do we want to have 
Guantanamo Bay as a continuing symbol of America?
    With that, Mr. Chairman, I yield back.
    Mr. Delahunt. I thank the gentlelady.
    Ms. Jackson Lee. And I am not sure, it looked like Ms. Kan 
was trying to say a word.
    Mr. Delahunt. Go ahead.
    Ms. Kan. I appreciate your comment.
    I would just make one clarification, that those camps in 
World War II, they were actually for Americans who happened to 
be of Japanese heritage. They were not Japanese. They were 
Americans. And that was part of the historical record.
    On your earlier question of whether or not we ought to ask 
questions about these designations, including the most recent 
one in April by the Treasury Department, there are indeed 
questions. Because we don't need to go back to the 1990s or the 
19th century. We can focus on the concerns about the threats 
last year surrounding the Olympic Games. And that is what 
Treasury tied the individual to those supposed threats last 
year. That is not the----
    Mr. Delahunt. But if I am correct, there were no incidents.
    Ms. Kan. There was no attack against the Olympic Games. 
There were incidents in May and July that were in Han ethnic 
Chinese cities.
    Mr. Delahunt. But not in the autonomous Uighur region.
    Ms. Kan. Well, that is just the point. When they happened 
in the Han ethnic Chinese cities in the east and the south, 
China denied that they were terrorism. When there were 
incidents in the far west, in Xinjiang, China immediately 
called them terrorist incidents.
    And there is another discrepancy, that the threats that 
were posted on YouTube--and we by no means take them at face 
value--they claimed credit for the incidents on the eastern 
part of China, but in fact those were not considered terrorist 
incidents by China nor by the United States Government. And 
there were some mistakes in making those claims at the same 
time.
    Mr. Delahunt. This is just--you know, this has been very 
informative. It was Professor Gladney, I think that you said 
that the majority of information regarding ETIM was traced back 
to Chinese sources. And I think your words were that leaves a 
significant credibility gap. Am I stating the gist of your own 
statement?
    Mr. Gladney. Yes, sir, I believe that your quotation that 
started this whole session set it out very perfectly. That 
clearly the statistics, whether they were reportedly--are the 
words used--were verbatim repeated. In other words, there was 
not even the effort to check if there were 443 civilian 
injuries or it was 445. It was 444.
    Mr. Delahunt. You can do a better job of pasting and 
cutting here.
    Mr. Gladney. My students would get a C minus for that 
report.
    Mr. Delahunt. That is shoddy.
    You know, I was just thinking, prior to 9/11--and you can 
respond, too, Mr. Secretary--was there ever any reference 
anywhere which would have linked ETIM or any of the Uighurs to 
al-Qaeda? Was that referenced anywhere in your knowledge in any 
reporting to the government, whether it is classified or 
unclassified or top secret or code red or code blue or 
whatever?
    Mr. Gladney. Can I speak to that, sir?
    I think even more interesting is that al-Qaeda themselves, 
whether bin Laden or his spokespersons, have never raised the 
Uighur cause as of interest to them. There is one reference to 
one of his lieutenants in one statement. But bin Laden himself 
has never mentioned the Uighur cause. There are a lot of 
theories about that.
    But he has mentioned specifically other so-called Muslim 
liberation causes, whether it was in Chechnya, or Mindanao, or 
whatever. So al-Qaeda is interested in supporting these.
    The other incident--the other aspect of this whole 
situation that should be made clear is that Uighurs 
traditionally have not been interested in radical Islam. They 
have a strong Sufi tradition. Sufis are persecuted by the 
Taliban and by al-Qaeda. There is some Wahabi influence in the 
region. It may be growing.
    But, traditionally, we have all called attention to the 
fact that Uighur culture is long, history of celebrating, a 
vibrant culture, dance, music, vibrant colorful clothing, all 
of the kinds of things that we have seen Taliban trying to wipe 
out. So it has never resonated with the al-Qaeda.
    Mr. Roberts. If I----
    Mr. Delahunt. We welcome back from Kosovo Professor 
Roberts.
    Mr. Roberts. I have been here. I have just been off the 
screen, I think. I just want to note, also, if you are 
examining this issue about foreign intelligence, I would also 
suggest that sources from places like Kazakhstan and Pakistan 
and Kyrzykstan are also--I would not see them as credible 
third-party sources in this instance, because they have their 
own interest also in classifying Uighurs as terrorists.
    Mr. Delahunt. Again, let me throw this to the panel. Do 
they support a Sharia state? Have we ever heard that? Because 
that is being stated by colleagues of mine here in the United 
States Congress.
    Of course, that conjures up images of the extreme form of 
Wahabism that has been embraced by, obviously, al-Qaeda. But is 
there any evidence of that anywhere in any document? Mr. 
Secretary, are you aware of any?
    Well, I think I have kept you here long enough. But this 
has been extremely informative. You have left us with more 
questions, but we have made a commitment to pursue, to create a 
record hopefully that will be----
    Ms. Kan, you mentioned that it was met--the designation was 
met with controversy outside and inside the State Department. 
Do you remember making that statement?
    Ms. Kan. Yes.
    Mr. Delahunt. Do you want to expand and amplify, or would 
you prefer to avoid that answer?
    Ms. Kan. I don't think I can get into specifics. But over 
the time of my research several sources have told me that it 
was controversial inside.
    Mr. Delahunt. Within the Department of State.
    Ms. Kan. But I think Randy can speak to that better.
    Mr. Schriver. Well, again, not having directly participated 
in this decision my recollection is, yeah, there were different 
views, but the controversy was mostly surrounding the very 
issues we are talking about today: What are the second and 
third order effects that we may not be able to control? Will 
this give the Chinese an imprimatur that we certainly don't 
want them to have for their repressive activities in Xinjiang?
    So I think the controversy mostly rested in believing that 
was the right designation, but would it be the appropriate 
thing to do in light of some of the possible consequences.
    Mr. Delahunt. Has anyone--I want to get back to where are 
the ETIM now. Do you have any information that they have 
existed in the past 3 years, 5 years, 6 years, 8 years? Mr. 
Secretary.
    Mr. Schriver. If you allow me to answer that indirectly, I 
think people could sort of create a road map of where some of 
the folks ended up or morphed into this other organization, 
ETIM.
    But I am not aware that anyone from the Bush administration 
who participated in this decision would object to a new 
administration reviewing that decision or saying that things 
have changed from the time in fall of 2002 when the decision 
was made. It is highly appropriate if the nature of the 
organization has changed or, as some suggest, no longer even 
exists that the government should take a fresh review of that. 
I wouldn't object to that. I don't think my boss would object 
to that, who made the original designation. It seems to me an 
entirely appropriate thing to do.
    Mr. Fein. Mr. Congressman, it shows some of the flaws, 
again, in the legal structure here. If you are listed as an 
FTO, the government is required to reexamine the listing at a 
minimum every 5 years and perhaps 2 years; and it is supposed 
to base its listing on the most recent window of time. 
Whereas----
    Mr. Delahunt. Does that really occur in the real world?
    Mr. Fein. Maybe when----
    Mr. Delahunt. Other than in a perfunctory manner?
    Mr. Fein. At least it has some element of sunset to it. And 
you are able under the statute after 2 years to go and petition 
the administration to take a new look.
    Now, maybe it is pro forma. But there isn't even that 
opportunity, just bureaucratic inertia in the--when you are 
listed by an Executive Order, it can be there for ages. It can 
just appear as an entity. Just people worried in post-9/11 I 
don't want to be said I removed a terrorist organization. That 
leaves you vulnerable--were you weak on terrorism--if there is 
some incident.
    Mr. Roberts. If I can add one thing, Congressman Delahunt, 
is that I think the people who will try to convince others that 
ETIM is still a threat will point to these things on the 
Internet related to the so-called Turkistan Islamic Party. Now, 
that is a completely--as far as I know, I have no evidence that 
that exists anywhere but on the Internet.
    It may indeed exist somewhere else. I saw last week an 
issue of Jamestown Foundation's Terrorist Monitor which 
purports that this organization is now putting out journals. 
And they found these on jihadi Web sites, which makes me really 
question how much they are related to Uighurs at all. But that 
would be one group that people will point to.
    Mr. Delahunt. Well, thank you, Professor.
    Ms. Kan.
    Ms. Kan. On your question about Sharia law, maybe I can 
just add a small point.
    If you look at the authoritative history of Xinjiang and 
the Uighur people going back to the Qing Dynasty and also in 
the Republican era, Republic of China era, when the Kuomintang 
controlled things, Sharia law was allowed. The Xinjiang people 
practiced Sharia during the Republican era. It was only when 
the Communist Party of China started to take control in 1950 
that the Communist Party, which bans these kinds of religions, 
tried to ban Sharia law, but it was in place historically. So 
what does that mean if people want to reinstitute something 
that they have had historically and was allowed previously?
    Mr. Delahunt. Well, this has been extremely informative. I 
am confident that some of you will be invited to return as we 
proceed, using the case of the 22 Uighurs who had been or are 
currently incarcerated at Guantanamo as an object lesson, as a 
case study, if you will, for I think some very serious issues 
that have been raised here today.
    Thank you, Professor Roberts. We appreciate your input.
    And to all of you, again, thanks; and we are done.
    [Whereupon, at 1 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Rohrabacher FTR deg.__

Material Submitted for the Record by the Honorable Dana Rohrabacher, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
